<html>
<title> - SYRIA: U.S. POLICY DIRECTIONS</title>
<body><pre>[Senate Hearing 108-417]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-417

                     SYRIA: U.S. POLICY DIRECTIONS

=======================================================================

                                HEARING





                               BEFORE THE





                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE





                      ONE HUNDRED EIGHTH CONGRESS





                             FIRST SESSION





                               __________

                            OCTOBER 30, 2003

                               __________






       Printed for the use of the Committee on Foreign Relations








 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



93-068              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN D. CHAFEE, Rhode Island      PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Black, Hon. J. Cofer, coordinator, Office of the Coordinator for 
  Counterterrorism, Department of State..........................     8
    Prepared statement...........................................    10
Burns, Hon. William J., Assistant Secretary, Bureau for Near 
  Eastern Affairs, Department of State...........................     5
    Prepared statement...........................................     6
Clawson, Patrick, Ph.D., deputy director, Washington Institute 
  for Near East Policy...........................................    24
    Prepared statement...........................................    25
Jouejati, Murhaf, Ph.D., adjunct professor, George Washington 
  University, and adjunct scholar, Middle East Institute.........    35
    Prepared statement...........................................    37
Leverett, Flynt L., Ph.D., visiting fellow, Saban Center for 
  Middle East Studies, Brookings Institution.....................    40
    Prepared statement...........................................    42
Murphy, Hon. Richard, Senior Fellow for Middle East Policy, 
  Council on Foreign Relations...................................    29
    Prepared statement...........................................    30

                                 (iii)

  

 
                     SYRIA: U.S. POLICY DIRECTIONS

                              ----------                              


                       Thursday, October 30, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:14 a.m. in 
Room SH-216, Hart Senate Office Building, Hon. Richard G. Lugar 
[chairman] presiding.
    Present: Senators Lugar [presiding], Chafee, Coleman, and 
Biden.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    The Chairman. This hearing of the Foreign Relations 
Committee is called to order. Today we are delighted to welcome 
Ambassador William Burns, Assistant Secretary of State for Near 
Eastern Affairs, and Ambassador Cofer Black, the 
Counterterrorism Coordinator, for a timely review of United 
States foreign policy towards Syria.
    We also welcome our distinguished second panel: Dr. Patrick 
Clawson of the Washington Institute for Near East Policy; 
Ambassador Richard Murphy of the Council on Foreign Relations; 
Dr. Murhaf Jouejati of the Middle East Institute; and Dr. Flynt 
Leverett of the Saban Center for Middle East Policy at the 
Brookings Institution.
    Hopes that reform could take root in Syria after the fall 
of Saddam Hussein have dimmed in the past few months. Instead, 
tensions have increased between the United States and Syria, 
and a cycle of retaliation and revenge has overtaken and 
derailed possible progress in the Road Map to Peace for the 
Israelis and the Palestinians. The Israeli retaliatory attack 
on an Islamic Jihad terrorist camp in Syria underscored that 
the ``no war and no peace'' status quo in the region cannot be 
taken for granted.
    Many experts thought that when President Bashar Al-Asad 
replaced his father 3 years ago he would adopt a more pragmatic 
approach to negotiations with Israel and to internal political 
and economic reforms. Syrian cooperation with the United States 
in relation to al-Qaeda terrorists held promise for cooperation 
in other areas. Secretary Burns noted last June in his 
testimony that ``the cooperation the Syrians have provided in 
their own self-interest on al-Qaeda has saved American lives.''
    But Syria's failure to stop terrorist groups, including 
Hizballah, Hamas, and the Palestinian Islamic Jihad, from using 
Syria as a base for training and planning suicide bombings in 
Israel has continued. Syria also has failed to withdraw its 
forces from Lebanon or open a dialogue for peace. It reportedly 
has continued to maintain stockpiles of chemical weapons and to 
pursue development of lethal biological agents. Moreover, Syria 
is working against coalition forces in Iraq by refusing to 
release nearly $3 billion in assets stolen from the Iraqi 
people.
    The Senate's discussions of the Syria Accountability Act 
have been based on the presumption that the most effective 
response to Syrian behavior is expanding sanctions against that 
country. This is a natural conclusion, but Syria's presence on 
the State Department's list of state sponsors of terrorism 
already brings with it a number of sanctions and restrictions. 
More importantly, as we give the administration additional 
sticks to use against Syria, we should be careful about 
restricting our government's flexibility in responding to 
diplomatic opportunities that might present themselves.
    Syria has shown some ability to make better choices: for 
example, supporting UN Security Council Resolution 1441 
following Secretary Powell's presentation in February and 
voting for the more recent Resolution 1511, which calls upon 
all nations to support the U.S.-led effort in Iraq.
    Even as we tighten restrictions on Syria, we should be 
emphasizing to the Syrians why it is in their best interest to 
recalculate their approach toward the United States. Syria 
shares a 400-mile border with Iraq. With more than 135,000 
United States troops deployed in Iraq, Syria needs to 
reconsider where its future security interests lie.
    This is not a threat of U.S. military action, but a 
statement of the new reality on Syria's borders. Moreover, 
Syrian forces that continue to occupy Lebanon are draining the 
already stagnant Syrian economy while providing few positive 
returns. Continued Syrian occupation of Lebanon only invites 
further possible military action from Israel.
    The Syrian leadership also must adjust to the end of its 
under-the-counter oil deals with Saddam Hussein. Syria must 
negotiate new and transparent arrangements to meet energy 
needs. Syria's moribund economy will not survive without 
opening up to investment and trade, particularly with Iraq. 
Significant benefits to Syria could accrue from an economically 
vibrant Iraqi trading partner, increased trade with Europe and 
the United States and even possible membership in a Middle East 
Free Trade Agreement.
    In this context, Syria may find motivation to return to the 
negotiating table. A deal on the Golan Heights that would 
provide security guarantees for Israel while respecting Syria's 
sovereignty could be a key to resolving a host of other 
problems, including Syria's occupation of Lebanon, its support 
of Palestinian terror groups, and its economic and political 
isolation.
    Although success of such an agreement would depend 
ultimately on the parties themselves, I would be interested to 
hear from our witnesses what the United States can and should 
do to promote a viable settlement. We look forward to our 
witnesses' recommendations on the other issues and hope that 
the discussion will lead to help inform our policy towards 
Syria.
    I would like to call now upon the distinguished ranking 
member of our committee, Senator Biden, for his opening 
statement.

            STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    Senator Biden.  Thank you very much, Mr. Chairman.
    I am delighted with our first panel from the State 
Department. I have very high regard for both gentlemen, as well 
as our second panel, which I am anxious to hear.
    I suggest we basically have three options with regard to 
our policy toward Syria right now. But I think there is a 
reality that we should all just sort of face up to. That is, I 
for one think that Syrian conduct relative to its neighbors, to 
support for terror, to opening up its economy, and every other 
aspect that we are going to examine about Syria's present 
government and Syria's present activity, as well as the 
bilateral relationship with the United States, in my view 
depends almost wholly upon our success or failure in Iraq.
    If in fact we are successful and stay the course in 
securing the peace and a stable government in Iraq, I think it 
will have a transforming impact upon Syrian conduct. Quite 
frankly, if we--if any of the scenarios that are discussed that 
relate to failure, either pulling out prematurely or not being 
able to secure the peace and a transition to a government 
viewed as legitimate--that is, essentially a representative 
republic--then I think it is Katy bar the door.
    I think we will reap the whirlwind, not, quite frankly, 
just in Syria, but in the entire region. I think it will be the 
end of modernity, any notions of it in the Arab world. I think 
it will temporarily bring to a halt any reasonable prospect of 
any notions of democratization, and it will end, I think for 
the foreseeable future, the prospects of nation states in the 
region cooperating in curtailing terrorist organizations, 
cabining their capability. It will have the exact opposite 
effect.
    I quite frankly think Bashar Asad has two people looking 
over--two circumstances looking over his shoulder: his father's 
old cabinet. When I sat with him, and I think we were together, 
Dick--I cannot recall, to be honest with you now, I have made 
so many trips lately--in his office for an hour and a half, it 
was interesting to watch. In our business, after doing this for 
3 decades, part of what the plain old politician part of us 
hopefully brings to the table is we are not all that bad at 
assessing what the other guy is thinking or what the other 
guy's motives are or what the other guy needs in the deal.
    I sat there and I looked at a guy who looked to me very 
conflicted. On the one hand he was modern enough to understand 
there had to be significant change in his country. On the other 
hand, every time he would even squint in that direction there 
would be a foreign minister or someone else sitting there 
glaring, literally, at him. I mean that in the literal sense.
    So that is one. Assuming Asad is attempting to moderate or 
ameliorate his relationships in the region, he has that one 
problem. The second problem he has is he is sitting atop a part 
of the world, in a part of the world, he just has no idea which 
way it is going to go right now. The honest to God truth is--
and everyone with whom I speak in the world--and I told this 
bad joke; I might as well tell it again because it sort of is a 
homely way of explaining it.
    There used to be a joke about the coach who had a center 
fielder who in four innings made seven errors. And he pulls 
George out and he puts in Joe or John. The first play after he 
puts in John is a routine pop fly to center field and John 
drops the ball. The coach goes crazy. He calls time out and 
calls John in, says: What the devil is the matter with you, 
John? John looks at the coach and says: Coach, George screwed 
up center field so badly no one can play it.
    Well, the truth of the matter is the rest of the world is 
looking right now. It is a bit of humor. Sometimes you need a 
little bit of humor to leaven how deadly serious this is. But I 
still think it is fully within our grasp to secure the peace in 
Iraq, but it is going to require some significant further 
change in policy to do so in my view.
    I think the rest of the world is standing around looking 
now: Do I want to play in center field? I am not at all sure. I 
am not at all sure friend or foes have reached a conclusion as 
to what the outcome is going to be. But when they reach that 
conclusion I think it is going to impact upon and inform their 
judgments on every other aspect of their relationship with us 
in the region.
    So we will talk about the Syria Accountability Act. We will 
talk about a number of other things here. But I just want to be 
clear, which I have been earlier with both the State Department 
personnel here, that I am going to ask their view at some point 
about how connected they think the possibilities are with 
regard to Syria and success or failure in Iraq.
    With that, Mr. Chairman, I thank you and I yield.
    The Chairman. Well, thank you very much, Senator Biden.
    Gentlemen, before I ask for your testimony I need to 
announce that we are going to have a roll call vote in about 3 
minutes. So it is the intent of the chair to recess the hearing 
so that members who are here can vote. Some of our colleagues, 
we presume, are proceeding to the floor to vote and will be 
returning. In this way, your testimony will not be conflicted 
with people coming and going. We will be back because we look 
forward to hearing from you.
    Now, let me just say at the outset that your statement and 
that of our following panel will be placed in the record in 
full. Be prepared to present as you wish your material in some 
summary form that would expedite the questions of the 
committee.
    We are likely to have another roll call vote, I am advised, 
at 12:30. So hopefully between these two roll call votes we 
will have an excellent hearing. If we are not finished at that 
point, we will continue after that vote so that all members 
have an opportunity to ask their questions of the witnesses.
    But for the moment, the hearing is recessed and we will be 
back very shortly.
    Senator Biden.  Thank you, gentlemen.

    [Recess from 10:29 a.m. to 10:58 a.m.]

    The Chairman. The hearing is called to order again. The 
vote was postponed again and again, as you may have surmised, 
but is taking place and members will be rejoining us.
    Ambassador Burns, we welcome you. We appreciate your coming 
and look forward to your testimony. Would you please proceed.

STATEMENT OF HON. WILLIAM J. BURNS, ASSISTANT SECRETARY, BUREAU 
         FOR NEAR EASTERN AFFAIRS, DEPARTMENT OF STATE

    Ambassador Burns.  Thank you, Mr. Chairman. I am delighted 
to be here this morning and, with your permission, I will 
submit my prepared statement for the record and offer just a 
few brief summary comments.
    The Chairman. It will be published in full.
    Ambassador Burns.  Mr. Chairman, our relations with Syria 
today are poor. Six months ago, Secretary Powell outlined in 
clear and candid terms for President Asad serious American 
concerns about Syrian behavior in a number of areas. The 
Secretary made equally clear our continuing commitment to 
comprehensive peace in the Middle East, including on the 
Syrian-Israeli and Lebanese-Israeli tracks. He stressed the new 
strategic possibilities in the region with the liberation of 
Iraq and urged Syria to reconsider its own interests and 
actions in light of those possibilities.
    Unfortunately, Syria has failed to make the fundamental 
changes that Secretary Powell emphasized last May. It is true 
that Syria has taken some positive steps on Iraq in recent 
weeks. It voted for United Nations Security Council Resolution 
1511, it is demonstrating cooperation on the issue of former 
Iraqi regime assets in Syrian banks, and it has improved 
control of its border with Iraq. While much more remains to be 
done, these recent steps are welcome. They are in Syria's 
interest as much as America's because Syria should have as big 
a stake as any country in a stable, unified Iraq.
    In other areas, however, Syria's actions continue to pose 
profound problems. Nowhere is this clearer than in the case of 
terrorist groups harbored by Damascus. Groups such as Hamas and 
Palestinian Islamic Jihad continue to operate out of Syria, 
directing and supporting attacks on innocent civilians in 
Israel and the occupied territories. Such attacks are 
reprehensible, deeply destructive of legitimate Palestinian 
aspirations for statehood, and totally contradictory to Syria's 
professed commitment to comprehensive peace.
    Syria simply cannot have it both ways. It cannot claim an 
interest in a political solution and the resumption of 
negotiations for the return of the Golan and at the same time 
shelter terrorists determined to do all they can to prevent 
such a political solution. And it certainly cannot have it both 
ways with the United States in the post-September 11th world.
    It is true that Syria has offered valuable cooperation 
against al-Qaeda. That is in both our interests and we welcomed 
it. But that does not outweigh Syria's continued support for 
other terror groups. In concert with Iran, Syria supports 
Hizballah, an extremely dangerous terrorist organization with 
global reach and the ability to threaten coalition forces in 
Iraq. Beyond its support for terrorism, we continue to have 
serious concerns about Syria's continued presence in Lebanon 
and its pursuit of weapons of mass destruction.
    Mr. Chairman, we take no particular satisfaction in 
highlighting our continuing troubles with Syria. We ought to be 
able to work together to revive hope for Arab-Israeli peace, 
shape the emergence of a stable Iraqi neighbor, fight violent 
extremists who threaten us all, and create a better economic 
future for Syria and its people. Dialogue and diplomacy between 
the United States and Syria have always been difficult and 
often frustrating. But in years past American administrations 
have sometimes found solid ground on which to build with Syria. 
I hope that our efforts at engagement can eventually produce 
that again in the future.
    But in the mean time, we face some real problems in Syrian 
behavior that we cannot afford to ignore. Action on the Syria 
Accountability Act certainly makes clear the depth of 
Congressional concern on these issues and the consequences of 
inaction by Syria. The administration will continue to work 
hard in our direct contacts with Syria as well as in concert 
with our friends and allies in the international community and 
the region to drive home to the Syrian regime the need, in all 
our interests, for fundamental changes in behavior.
    Thank you very much, Mr. Chairman. I look forward to your 
questions.

    [The prepared statement of Ambassador Burns follows:]

                 Prepared Statement of William J. Burns

    Thank you, Mr. Chairman, members of the committee, for the 
opportunity to speak about the U.S.-Syria relationship.
    I think it might be useful to frame today's discussion of our 
relationship with Syria in the context of the four goals that drive our 
overall agenda in the Middle East. First, the emergence of an Iraq that 
is unified, stable, democratic, and prosperous. Second, the achievement 
of the President's vision of two states, Israel and Palestine, living 
side-by-side in peace and security. Second, achievement of the 
President's vision of two states, Israel and Palestine, at peace and 
secure with each other and the region. Third, the elimination of the 
threat of terrorism and the spread of weapons of mass destruction. And 
fourth, support for homegrown efforts at economic and political reform 
as the best means to achieve lasting peace, and prosperity and 
democracy in the region.
    It is through this policy prism that we must view Syria's actions 
and draw conclusions about the course of our relationship. 
Unfortunately, Syria's record with regard to these four foreign policy 
priorities is poor. In his visit to Damascus in May, the Secretary of 
State spoke candidly to Syrian President Bashar Al Asad about our 
concerns about Syrian behavior and identified the issues that the 
Syrian regime needed to address in order to develop a positive and 
productive relationship with the United States. Secretary Powell made 
clear that the United States remained committed to comprehensive peace 
in the region, including on the Syrian and Lebanese tracks, and 
remained ready for an improved bilateral relationship. But he also 
explained that the Syrians needed to establish that they were prepared 
to play a constructive role in the search for regional peace before we 
could envision progress on these fronts. I reinforced the Secretary's 
message in Damascus in August.
    We have been very direct with the Syrians about our concerns. The 
issues emphasized in the Syria Accountability Act have been reflected 
in our ongoing dialogue with Damascus for months now. While we have 
seen some positive steps with respect to Iraq, we remain deeply 
concerned on other critical areas--particularly terrorism and WMD.

Iraq
    In the months leading up to Operation Iraqi Freedom, the 
Administration had two areas of particular concern with respect to 
Syria's relationship with the regime of Saddam Hussein: illicit oil 
trade and illicit transshipment of dual-use and military-related items 
into Iraq. Despite repeated warnings, the Asad regime allowed these 
actions to continue, even after the beginning of Coalition military 
action in Iraq. Fortunately for all concerned, decisive U.S. engagement 
in the early days of the conflict brought an end to these activities.
    We have been clear: there is no issue of greater importance for the 
United States than the safety and security of U.S. and Coalition 
personnel in Iraq. To this end, during his May visit, the Secretary 
focused on the need for Syria to secure its borders with respect to 
both high-level figures of the former Iraqi regime who might seek 
safehaven in Syria, as well as those individuals who might seek to 
infiltrate Iraq from Syria to bring harm and instability. In addition, 
the Secretary noted the importance of securing former regime assets 
held in Syrian banks so that they might be returned to their rightful 
owners, the Iraqi people.
    Though Syria has taken steps over the past several months to 
address these areas of concern, their efforts fall short of what is 
necessary. On the border, we have witnessed increased vigilance on the 
part of Syrian security forces. But the porous nature of the Syrian-
Iraqi border and cross-border tribal ties mean that Syria continues to 
be a preferred route for those seeking to undermine Coalition efforts 
to establish stability and a peaceful transition to democracy in Iraq.
    On the issue of former Iraqi regime assets, a joint U.S.-Iraqi 
forensic accounting team recently departed Damascus, where they worked 
closely with Syrian officials to obtain information related to the 
disposition of Iraqi assets in Syria. We continue to call on Syria, and 
nations around the world, to live up to their obligations under UNSCR 
1483 and return these funds to the Iraqi people, where they belong.
    We are pleased with Syria's recent vote in support of UNSCR 1511 
and its decision to attend the Iraqi donors conference in Madrid. We 
hope this represents a new readiness by Syria to fully support the 
stabilization and reconstruction of Iraq.

Israel/Palestinians
    While the Syrian leadership publicly affirms its support for 
comprehensive peace in the Middle East and its desire to restart 
negotiations for the return of the Golan Heights, it continues to offer 
safehaven to Palestinian rejectionist groups whose terrorist actions 
undermine both progress toward President Bush's two-state vision and 
the aspirations of the Palestinian people. Damascus claims that the 
offices of HAMAS, Palestinian Islamic Jihad, and the PFLP-GC are purely 
informational in nature. Such claims are simply not credible. 
Individuals associated with these groups continue to engage in 
operational activities from their Damascus base. Syria's refusal to 
seriously address this issue and sever ties with these terrorist 
organizations delays the day when Syria's own territorial claims can be 
addressed via negotiations.
    Syria maintains an unhelpful approach in the UN Security Council, 
where it has sponsored unbalanced resolutions related to Israel-
Palestine conflict and refused to include language condemning 
terrorism.

Terrorism and WMD
    Syria, in concert with Iran, also provides support--including safe 
haven and transit for personnel and materiel between Iran and Lebanon--
to Lebanese Hizballah, another terrorist organization whose activities, 
particularly in South Lebanon, are a destabilizing factor in the 
region. Hizballah's global reach--and the threat it could pose to our 
forces in Iraq--makes it an organization of particular concern to the 
United States and our allies in the global war on terrorism.
    With respect to Syrian cooperation against Al-Qaeda, this 
Administration has acknowledged that Syrian cooperation earlier in the 
war on terrorism was has been valuable and has saved American lives. 
This cooperation, however, is not sufficient to outweigh Damascus' 
continued support for other terror groups.
    On weapons of mass destruction, Under Secretary Bolton noted in 
Congressional testimony earlier this fall our concern about Syria's 
nuclear R&D program and the need to watch for any activity or evidence 
of foreign assistance that could facilitate a Syrian nuclear-weapons 
capability. We are aware of Syrian efforts to acquire dual-use 
technologies that could be applied to a nuclear weapons program. Syria 
is a party to the Non-Proliferation Treaty on the Non-Proliferation of 
Nuclear Weapons and has a standard fullscope safeguards agreement with 
the IAEA, but has not yet signed the IAEA Additional Protocol to its 
safeguards agreement. Syria has signed, but not ratified, the 
Biological Weapons Convention. Nevertheless, Syria is fully committed 
to expanding and improving its chemical and biological weapons 
programs, which it believes serve as a deterrent to regional 
adversaries. Damascus is pursuing both solid- and liquid-propellant 
missile programs and relies extensively on foreign assistance in these 
endeavors.

Reform
    President Asad assumed power over three years ago in an atmosphere 
of optimism--a so-called ``Damascus Spring.'' The fact that early 
expectations about the pace and degree of reform the new President 
would pursue may have been overly ambitious does not diminish the 
disappointment with the lack of progress to date. Efforts thus far--
including the demilitarization of Syrian public schools by ending 
military-style school uniforms and mandatory military summer camp, a 
refocusing of the ruling Ba'ath Party's role in government, and 
creation of private universities--are mere ``glimmers'' and much 
remains to be done to address endemic corruption, infringement of 
fundamental human rights such as freedom of expression and association, 
and a lackluster commitment to meaningful economic reform.
    In short, Mr. Chairman, while Syria has decided to work 
constructively with the United States in some areas, on balance, we 
remain very concerned that the government in Damascus continues to 
exert a negative influence on several of the critical foreign-policy 
priorities I outlined at the beginning of my remarks. In some 
instances, it seems that Syria harbors the illusion that cosmetic steps 
will be enough to defuse our concerns. In others, there seems to be a 
misplaced belief in Damascus that U.S. engagement in Iraq and with the 
Israelis and Palestinians will prevent us from pursuing a robust agenda 
with Syria. Both judgments are ill-considered and fail to grasp the 
depth of our concerns, and those of the international community.
    Until Syria shows itself committed to comprehensive peace in the 
region through concrete actions, it will continue to find itself at 
odds with the United States and increasingly isolated internationally.
    The Syrian regime has some tough choices to make. It can continue 
to harbor and support groups devoted to terror, and engage in behavior 
that calls into question its commitment to regional peace and 
stability. Or it can act in ways that reflect new strategic realities 
in the region and help restore hope for a resumption of the Syrian-
Israeli track, encourage the emergence of a stable Iraqi neighbor, and 
create a better economic future for Syria. But it can't have it both 
ways.
    The irony we face, Mr. Chairman--if Damascus' public statements are 
to be believed--is that the U.S. and Syria share a common vision for 
the region: a peaceful and stable Iraq ruled by Iraqis, and a just and 
comprehensive peace between Arabs and Israelis. The challenge we face 
is in charting a course that will persuade Syria to take the necessary 
actions to contribute to that vision.

    The Chairman. Thank you very much, Ambassador Burns.
    Ambassador Black, do you have testimony at this time or 
have you come in support of Ambassador Burns?
    Ambassador Black.  I come in support. I have a couple of 
brief introductory remarks if that is acceptable.
    The Chairman. Fine, I would appreciate that.

HON. J. COFER BLACK, COORDINATOR, OFFICE OF THE COORDINATOR FOR 
             COUNTERTERRORISM, DEPARTMENT OF STATE

    Ambassador Black.  Thank you, Mr. Chairman, members of the 
committee, for the opportunity to appear before you today to 
discuss Syria's role as a state sponsor of terrorism.
    There is no doubt that many past Syrian actions are in dire 
conflict with U.S. interests in the region and that the current 
posture of the Syrian government towards terrorism continues to 
be wholly unacceptable. As a state sponsor of terrorism, Syria 
has repeatedly shown an unwillingness to fundamentally change 
its behavior regarding support for terrorism.
    While we continue to have hope for eventual improvements in 
Syrian attitudes, policies, and actions, we see little at this 
time to indicate that Syrian support for terrorism is 
diminishing. Syria remains a security concern not just because 
of terrorism, but also because of their pursuit of weapons of 
mass destruction. Since Under Secretary John Bolton has 
recently testified on the latter, which is in his area of 
expertise, I will discuss briefly the former.
    The threat to our country posed by states who both sponsor 
terrorism and pursue weapons of mass destruction is one which 
we cannot and will not ignore. Syria, a sponsor of numerous 
terrorist organizations, is a country whose actions we must 
follow carefully in this regard. While there is currently no 
information indicating that the Syrian government has 
transferred weapons of mass destruction to terrorist 
organizations or would permit such groups to acquire them, 
Syria's ties to numerous terrorist groups underlie the reasons 
for continued attention.
    The threat posed by Syria can best be understood by 
addressing three areas: border security, which is directly 
related to the security of our forces in Iraq; Syrian 
government support for Palestinian rejectionist groups; and 
Syrian support for Lebanese Hizballah. Obviously, many of you 
share these concerns, which is why the Syria Accountability Act 
is under consideration in Congress.
    Regarding Iraq, Syria took a series of hostile actions 
towards coalition forces in Iraq. Syria allowed military 
equipment to flow into Iraq on the eve of and during the war. 
Syria also permitted volunteers to pass into Iraq to attack our 
servicemembers during the war. In the period following the 
conclusion of major military action, foreign fighters have 
continued to transit into Iraq from Syria.
    While the situation on the Syrian border has improved in 
recent weeks, it is still a major source of concern for us. We 
see indications that the Syria-Iraq border is more secure now 
than it has ever been. To put the issue in proper context, in 
the past there was not the security need for the Syrian 
government to secure the border to the extent that they must do 
so now. That is only one factor in this problem.
    While it is understandable that the Syrian authorities may 
have had initial problems in ramping up, what we have found 
unacceptable was the manner in which the Syrians delayed taking 
effective action. We are cautiously optimistic that the 
situation will continue to improve along the border.
    We also remain concerned about the possibility of anti-
coalition activity being organized inside of Syrian territory. 
As we have said for some time, Syria provides a safe haven and 
material support for several Palestinian rejectionist groups, 
including Hamas, Palestinian Islamic Jihad, Popular Front for 
the Liberation of Palestine-General Command, and the Popular 
Front for the Liberation of Palestine, the Democratic Front for 
the Liberation of Palestine, the Abu Mousa Organization, and 
the Popular Struggle Front.
    The Syrian government maintains that the offices of these 
groups are used solely for press purposes and play no 
leadership or operational role in the conduct of terrorist 
attacks. We reject this argument, have seen evidence that some 
of these offices are in fact used clearly for operational 
purposes. Even if this were not the case, we would continue to 
insist that the Syrian government close these offices, which 
maintain vocal public support for these nefarious 
organizations. Syrian tolerance of Palestinian rejectionist 
groups' offices in their country shows a lack of commitment to 
support reasonable efforts towards a comprehensive peace 
between Israel and Palestine.
    Syria also continues to provide safe haven and a policy 
cover to Hizballah in Lebanon, which has killed hundreds of 
Americans and numerous others in the past. Syrian support for 
Hizballah continues to be a major impediment towards progress 
in our counterterrorism efforts. Syria allows resupply of 
Hizballah from Iran via Damascus. Syria also allows wanted 
Hizballah terrorists, including Amag Mugniyah, to transit Syria 
and find safe haven there. The Syrian military presence in 
Lebanon supports Hizballah actions there.
    In Syria we see a convergence of hostile rhetoric and a 
history of support for terrorism. Our bilateral relationship 
with Syria is a complex one. We share Congress' concerns with 
respect to Syria and have been engaged in extensive direct 
dialogue with the highest levels of the Syrian government on a 
full range of issues, including terrorism, weapons of mass 
destruction, Lebanon, and Iraq.
    Unfortunately, these conversations have borne little fruit 
in changing Syrian actions on support for terrorism. While 
there may have been areas of cooperation on certain 
counterterrorism issues between our two governments, this is 
not sufficient to counter our grave concern about Syria's 
continued support for group such as Hamas, PFLP-GC, PIJ, 
Hizballah, and others.
    It should be noted that what we ask of Syria is not unusual 
nor is it exceptional. We ask them to join the community of 
nations which reject terrorism as a political tool. We ask them 
to cease support for groups whose only goal is to kill and to 
maim in the pursuit of policies which seek to destroy rather 
than support peace.
    We remain optimistic that continued engagement with Syria 
will one day lead to a change in Syrian behavior, a change that 
will allow them once again to interact with us on a normal 
footing. But that change must come from the Syrian government. 
We will judge them on their actions.
    Mr. Chairman, thank you very much for allowing me to make 
my opening statement.

    [The prepared statement of Ambassador Black follows:]

              Prepared Statement of Ambassador Cofer Black

    Thank you, Mr. Chairman and members of the Committee, for the 
opportunity to appear before you today to discuss Syria's role as a 
state sponsor of terrorism.
    There is no doubt that many past Syrian actions are in direct 
conflict with U.S. interests in the region and that the current posture 
of the Syrian government toward terrorism continues to be wholly 
unacceptable. As a state sponsor of terrorism, Syria has repeatedly 
shown an unwillingness to fundamentally change its behavior regarding 
support for terrorism. While we continue to have hope for eventual 
improvements in Syrian attitudes, policies and actions, we see little 
at this time to indicate that Syrian support for terrorism is 
diminishing.
    Syria remains a security concern not just because of terrorism, but 
also because of its pursuit of weapons of mass destruction. Since 
Undersecretary John Bolton has recently testified on the latter, which 
is his area of expertise, I will focus on the former. The threat to our 
country posed by states who both sponsor terrorism and pursue weapons 
of mass destruction is one which we cannot and will not ignore.
    Syria, a sponsor of numerous terrorist organizations, is a country 
whose actions we must follow carefully in this regard. While there is 
currently no information indicating that the Syrian government has 
transferred WMD to terrorist organizations or would permit such groups 
to acquire them, Syria's ties to numerous terrorist groups underlie the 
reasons for our continued attention.
    The terrorist threat posed by Syria can best be understood by 
addressing three areas: border security, which is directly related to 
the security of our forces in Iraq; Syrian government support for 
Palestinian rejectionist groups; and Syrian support for Lebanese 
Hizballah.
    Obviously, many of you share these concerns, which is why the 
Syrian Accountability Act is under consideration in Congress.

Iraq
    Syria took a series of hostile actions toward Coalition forces in 
Iraq. Syria allowed military equipment to flow into Iraq on the eve of 
and during the war. Syria also permitted volunteers to pass into Iraq 
to attack our service members during the war.
    In the period following the conclusion of major military action, 
foreign fighters have continued to transit into Iraq from Syria. While 
the situation on the Syrian border has improved in recent weeks, it is 
still a major source of concern for us.
    We see indications that the Syria-Iraq border is more secure now 
that it has ever been. To put the issue in proper context, in the past 
there was not the security need for the Syrian government to secure the 
border to the extent they must now do so. That is only one factor in 
this problem. While it is understandable that the Syrian authorities 
may have had initial problems in ramping up, what we found unacceptable 
was the manner in which the Syrians delayed taking effective action. We 
are cautiously optimistic that the situation will continue to improve 
along the border.
    We also remain concerned about the possibility of anti-coalition 
activity being organized inside of Syrian territory. I refer you to the 
intelligence community for its assessment of this issue.
Palestinian Terror Groups
    As we have said for some time, Syria provides safehaven and 
material support for several Palestinian rejectionist groups, including 
HAMAS, Palestinian Islamic Jihad (PIJ), the Popular Front for the 
Liberation of Palestine General Command (PFLP-GC) and the Popular Front 
for the Liberation of Palestine (PFLP), the Democratic Front for the 
Liberation of Palestine (DFLP), the Abu Musa Organization (AMO), and 
the Popular Struggle Front (PSF). The Syrian government maintains that 
the offices of these groups are used solely for press purposes and play 
no leadership or operational role in the conduct of terrorist attacks. 
We reject this argument and have seen evidence that some of these 
offices are, in fact, used for operational purposes. Even if this were 
not the case, we would continue to insist that the Syrian government 
close these offices which maintain vocal public support for these 
nefarious organizations.
    Syrian tolerance of Palestinian rejectionist groups' offices in 
their country demonstrates a lack of commitment to support reasonable 
efforts toward a comprehensive peace between Israel and the 
Palestinians.

Lebanese Hizballah
    Syria continues to provide safe haven and political cover to 
Hizballah in Lebanon, a group responsible for killing hundreds of 
Americans and numerous others in the past. Syrian support for Hizballah 
continues to be a major impediment towards progress in our 
counterterrorism efforts. Syria allows resupply of Hizballah from Iran 
via Damascus. Syria also allows wanted Hizballah terrorists, including 
Imad Mugniyah, to transit Syria and find haven there. The Syrian 
military presence in Lebanon supports Hizballah actions there.

Conclusion
    In Syria we see a convergence of hostile rhetoric and a history of 
support for terrorism. Our bilateral relationship with Syria is a 
complex one. We share Congress' concerns with respect to Syria and have 
been engaged in extensive, direct dialogue with the highest levels of 
the Syrian government on a full range of issues--including terrorism, 
WMD, Lebanon and Iraq. Unfortunately, these conversations have borne 
little fruit in changing Syrian actions on support for terrorism. While 
there may have been areas of cooperation on certain counterterrorism 
issues between our two governments, this is not sufficient to counter 
our grave concern about Syria's continued support for groups such as 
HAMAS, PFLP-GC, PIJ, Hizballah, and others.
    It should be noted that what we ask of Syria is not unusual nor is 
it exceptional. We ask them to join the community of nations which 
reject terrorism as a political tool. We ask them to cease support for 
groups whose only goal is to kill and maim in the pursuit of policies 
which seek to destroy rather than support peace. I remain optimistic 
that continued engagement with Syria will one day lead to a change in 
Syrian behavior--a change that will allow them once again to interact 
with us on a normal footing. But that change must come from the Syrian 
government--we will judge them on their actions.

    The Chairman. Thank you very much, Ambassador Black.
    The chair would suggest a first round of questioning of 
maybe 7 minutes for each of us, and we may wish to have another 
round if members have not asked all the questions that they 
would like.
    Let me begin by commenting that I appreciated Senator 
Biden's opening statement. He will probably amplify that 
further on his own, but it would appear to me that cooperation 
with Syria immediately following military activity in Iraq 
looked more promising than does that activity today. Now, 
without having any thermometer with which to gauge why people 
become more interested in cooperating and why they begin to 
slack off in that, it would appear to be that the Syrian 
government, including the chief leader, the president of the 
country, as well as advisers for his father and for himself, 
may be more tentative in their judgment about our success, that 
of the United States and the coalition, in Iraq.
    To what extent in your judgment are they inclined over the 
course of days or weeks to take more of a wait and see attitude 
as opposed to taking activities that are more in consonance 
with the foreign policy objectives that you have stated? I 
gather, from reading your papers and those of our other 
witnesses, that most see the Syrians as a pragmatic people, 
without necessarily oversentimental ties with the Palestinians 
or with al-Qaeda or with others who are out there.
    But where do their interests lie and to what extent will 
our success in Iraq lead them back to a path of more 
cooperation and then perhaps to some fulfillment pragmatically 
of their own foreign policy objectives? Do you have a thought 
on that, Ambassador Burns?
    Ambassador Burns.  Yes, Senator Lugar. I think you are 
right. I do not think, at least in my experience, sentiment has 
ever been the driving impulse in Syrian foreign policy. I think 
there were a number of miscalculations that the Syrian regime 
made in the period just before Operation Iraqi Freedom and the 
beginning of military conflict. A lot of activities across the 
Iraqi border which--
    The Chairman. Were there miscalculations perhaps that there 
would not be military activity, in other words that there would 
not be an attack on Iraq at all?
    Ambassador Burns.  Either that there would not be an attack 
or that it would be far more complicated and protracted than 
turned out to be the case. I think certainly the rapid success 
of the coalition militarily got the attention of the Syrian 
regime. I think that was reflected in the nature of the 
conversation that Secretary Powell had in early May when he 
visited Damascus.
    In recent weeks, as I mentioned to you, Mr. Chairman, in 
several areas connected to Iraq there have been some signs of 
Syrian actions consistent with our interest in a stable, 
unified Iraq: the vote in favor of Resolution 1511, cooperation 
over the last couple of weeks with a team of Iraqi and American 
experts investigating frozen assets in Syrian banks from the 
former Iraqi regime. There has been a degree of cooperation 
that we had not seen before and, as Ambassador Black also 
mentioned, improved efforts on the part of the Syrians to 
control their border with Iraq.
    So in all those areas there are at least some indications 
of a recognition of the importance of responsible behavior with 
regard to Iraq and of Syria's interest, which ultimately is 
what is going to drive Syrian policy, in a unified, stable Iraq 
and progress toward the Iraqi people regaining control of their 
own affairs.
    Much more remains to be done and we will certainly push 
hard to see that performance, again in Syria's interest as well 
as America's, strengthened and improved in the future.
    The Chairman. What other factors could influence Syria to 
become more cooperative, in addition to contributing to its 
perception that the coalition is being successful in Iraq? Thus 
far it does not appear that economic difficulties in the 
country have led to particular changes. I suspect that the 
Senate is likely after this hearing to act on the Syria 
Accountability Act, which you have mentioned, and that it 
probably will pass the act, as the House of Representatives 
did. That would impose additional sanctions, hopefully with 
flexibility for the administration in the event that diplomatic 
activity becomes more promising.
    In fact we already have a number of sanctions on the 
country now and it does not appear that economic changes seem 
to be operative or at least determinative in terms of their 
activities. What else, in addition to success in Iraq, might 
change the picture?
    Ambassador Burns.  Mr. Chairman, I think success in Iraq, 
which we are determined, as you know, to achieve, I think is 
crucial, not just with regard to Syrian behavior, but with 
regard to our interests throughout the region. I think the 
other argument that we will continue to try and drive home and 
that we have made repeatedly to President Asad and others in 
the Syrian leadership is that Syria is falling farther and 
farther behind the global economy and a recognition that I 
think is growing in many other societies in the Arab world that 
economic, social, political modernization is long overdue.
    It is very interesting in recent reports, there have been 
development reports that have been put out, a growing 
understanding in the region that home-grown economic and 
political reform is absolutely essential. There are things the 
United States could do to help in the region in support of that 
effort, and our hope certainly is that in Syria, as in other 
societies, there will be an appreciation of self-interest in 
moving in those directions, though we have not seen a lot of 
evidence so far.
    The Chairman. Ambassador Burns, it appears that economic 
indicators show that many, if not most, states in the Middle 
East continue to have deteriorating economic circumstances. 
This does not appear to have been determinative of their 
foreign policy. In other words, a growing gap occurs with the 
rest of the world, sliding downhill very rapidly.
    Some persons come to us and come to you and they say: Well, 
these are autocratic regimes, people who have their own agendas 
quite apart from the ordinary needs of common people for jobs 
and economic progress. But these regimes are supported. We are 
accused of supporting them, of propping them up, even in the 
midst of total default.
    In other words, Syria is not an archetype of this, but it 
is another case in which the economy is not quite a disaster, 
but heading rapidly to the rocks and shoals comparatively. Yet 
at the top there does not appear to be any change that is 
affecting any of that.
    Now, we may be right that we can try to cajole them: You 
ought to do more to help your people and we will do something 
here. But I am not sure that is working. That is why I probe 
this a little bit further.
    Ambassador Burns.  Well, Mr. Chairman, it is not sinking in 
in certain societies, you are absolutely right. The truth is 
that stability in the Middle East, like anyplace else, is not a 
static phenomenon, and societies in the Middle East, like other 
parts of the world, that adapt, that adjust, that take the 
initiative on political, social, economic reform and look ahead 
are going to succeed, and those that do not are going to fall 
further and further behind and ultimately become failed 
regimes.
    I think that is simply the reality. It is not a function of 
American preaching as it is facts and, as I said, realities 
that have to be absorbed.
    The Chairman. Thank you very much, Ambassador.
    Senator Biden.
    Senator Biden.  Thank you very much, Mr. Chairman.
    Gentlemen, again welcome. I say this not in any pejorative 
way. The neoconservative view and influence within the 
administration has argued and written fairly extensively that 
our use of power when necessary, particularly in the face of 
the disapprobation of the rest of the world, presents us with 
an opportunity to leverage that power to get malcontents in 
other parts of the world to straighten up, as my uncle used to 
say, straighten up and fly right.
    I think there is some truth to what they say, what they 
write. Some in the administration and some close advisers to 
the administration outside the administration argue that when 
we moved successfully in Iraq and our shock and awe program or 
initiative that we would see a change in behavior on the part 
of Syria relative to all our concerns, particularly support for 
terrorists.
    It looked like, for a moment anyway, or at least 
temporarily, when the Secretary of State made his visit to meet 
with the president of Syria shortly after the Syrians 
miscalculated in that they thought we would have a longer slog, 
to use a term from our Secretary of Defense, in bringing about 
the collapse of the Syria regime, they looked like they were 
going to take some concrete actions. If I am not mistaken, we 
demarched them with some specific requests relating to the 
location, the support, the visibility, the headquarters of and 
the offices of Hizballah and others.
    The initial, if memory serves me, the initial response 
seemed to be that they were going to take some action, and they 
did take some at least cosmetic actions. There were proposals 
from some of us--and I am not suggesting they were not shared 
by State or the President--that one of the things that we could 
do to also aid and abet the effort on the Road Map would be to 
insist that the Syrians allow the Lebanese army to replace on 
the Israeli border the forces that are there now, and that 
would have taken, the assumption was, the acquiescence at least 
of the Syrians, if not the direct intervention of the Syrians.
    So we all kind of waited to see what was likely to happen. 
Am I correct in suggesting that at the end of the day, that is 
today, not much did happen, notwithstanding what we may or may 
not have thought would happen after the visit of the Secretary 
of State? This is no veiled criticism of the Secretary of 
State. Did we see any activity initially and if we did, did it 
change? Or where are we today in terms of the specific requests 
made by the United States of America to the Syrian government 
to close down offices, etcetera?
    Ambassador Burns.  Sir, I think there has been some 
incremental change, as you mentioned. But the honest answer is 
it is certainly short of the mark that Secretary Powell had 
emphasized during that meeting in early May.
    With regard to Iraq, as I said, there has been some recent 
movement on 1511, on borders, on assets held in Syrian banks; 
still more to be done. With regard to Palestinian terrorist 
groups--and Ambassador Black may want to add to this--there 
were some essentially cosmetic changes, as you mentioned, 
certain offices closing down, but still cadre of people in 
groups like Palestinian Islamic Jihad and Hamas continuing to 
operate, harbored by the Syrians, continuing to be involved 
financially, logistically, in terms of planning and direction 
of attacks against innocent civilians; a continuing 
relationship with Hizballah.
    You are right, Senator, the Secretary did emphasize, 
Secretary Powell did emphasize, in early May the concerns we 
have about Lebanon, the value of allowing the Lebanese armed 
forces to deploy fully to the border, and we have not seen 
significant movement in that direction.
    Senator Biden.  I understand that cooperation between Syria 
and our military in the Mosul area of Iraq has been pretty 
good, with cross-border trade picking up, Iraqi oil being 
exported to Syria. And you both know better than I, this region 
of Iraq has had close historical ties with Syria.
    Now, the question that I keep wrestling with--and our 
witnesses I expect will speak to this a little bit as well--is, 
there is no doubt in my mind, and I may be wrong, but there is 
no doubt in my mind that the degree to which cooperation will 
take place on this broad front of concerns we have is directly 
related to whether or not they believe we are going to succeed 
in the region, in Iraq.
    Prior to us going into Iraq, a number of us made visits to 
heads of state throughout the region, and privately every head 
of state did say what the administration was saying they were 
privately saying: We have no love for Saddam Hussein; take him 
down, but if you take him down make sure you finish the job. I 
do not know how many times I heard that stated.
    That was the drumbeat in the background of the 
administration saying: Although the world says they are against 
us, they are really not against us; they are really for us 
doing this. But the tagline always was: Get the job finished, 
meaning establish stability when it is all said and done. Do 
not just replace him--I mean, do not just topple him, but 
replace him.
    So there is no doubt in my mind that what you are seeing is 
a sort of temporary paralysis in the region deciding which way 
is in my naked self-interest to go, based on whether the 
Americans are going to finish the job. But what I do not have a 
sense of--and I realize this is a fairly broad question, but I 
respect both your judgments, and that is why I am asking it--
what does your instinct tell you about whether or not they 
would like us to succeed in Iraq?
    I am ambivalent on that point. I am not--I can see a 
scenario where if I am sitting in Damascus it is very much in 
my interest for there to be on the one side a stable non-
threatening Iraq to my north. On the other side, I can say: 
Well, God, I hope any of those notions of democracy or 
representative government do not spread to me; it could be 
dangerous.
    Have you run the calculus as to whether or not--not whether 
or not they are trying to make it more difficult and not 
whether or not their feinting and bobbing and weaving has 
anything to do with the outcome. What do you think they think 
is in their interest? And is it split within Syria between the 
old guard, if there is an old and new guard, because that is 
another--you know, we always look for these things. We are 
always looking for Jeffersons behind some rock somewhere who is 
going to pop up and democratize a nation. They seldom, if ever, 
exist.
    But I realize the question is fairly broad, but would you 
be willing to engage us a little bit in your sense of what you 
think Iraq would--I mean, what you think Syria would view as in 
their interest relative to Iraq? The reason I ask the 
question--and I conclude with this--is because assume there 
was--it was in their interest for them to have a say in what 
emerges in Baghdad whenever. Then is the six plus two 
arrangement that we used in Afghanistan, does that have any--is 
there any reason for us to be engaging Syria about the future 
of Iraq?
    That is more like an essay question. I apologize, but I 
would appreciate it if you would just speak to us a little bit 
about that.
    Ambassador Burns.  Sure, I would be glad to try to, Senator 
Biden. First, as you suggested, historically there is no love 
lost between the Ba'athists in Damascus and the Saddam Hussein 
regime in Baghdad. A long history of tension between the two of 
them. So objectively in many ways it would seem at least to be 
in Syria's political interest to see that regime gone. 
Commercially, there has been a lot of interaction in the past 
and in the future a healthy Iraqi economy, a prosperous, stable 
Iraq, would seem to offer a number of possibilities for all of 
its neighbors.
    I think you are right, Senator, to suggest that, in fact I 
am certain that, there are some well-entrenched interests in 
Syria who view the prospect of a unified, prosperous, 
politically progressive or democratic regime and system of 
governance emerging in Iraq as threatening in some respects. 
But I think the bottom line probably is the Syrian regime is 
looking very carefully at what is going on in Iraq, and I think 
the real bottom line, as you suggested, is that success in 
Iraq, defined as the Iraqi people regaining control of their 
own affairs and living in peace with their neighbors, will 
probably have as great an impact as anything else on the 
calculations not just of the Syrian regime but others in the 
region. That is why the President is so determined to help 
Iraqis achieve that result.
    But I think there is a certain conflict in the minds of 
many Syrians in the regime about that outcome.
    Senator Biden.  Mr. Black, do you have any comment?
    Ambassador Black.  Senator, I could only echo what 
Assistant Secretary Burns said, but also what you have said. I 
think it is right on the mark. They are very pragmatic. They 
assess their environment and they will attempt to encourage 
those relationships and those situations that are in their 
interest.
    I think we all would hope that they would appreciate that a 
free Iraq that is prosperous, that is a good trading partner, 
on the whole is clearly to their advantage.
    Senator Biden.  I thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Biden.
    Senator Chafee.

               STATEMENT OF HON. LINCOLN CHAFEE,
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Chafee.  Thank you, Mr. Chairman. Welcome to the 
witnesses.
    We had an opportunity in the last several weeks to visit 
the region and in our trip to Turkey we were fortunate enough 
to meet with Prime Minister Erdegan, and I asked him about the 
Syria Accountability Act, what would his advice be. He said 
that Asad really wants to steer his country more towards the 
middle--and of course Turkey shares a long border, of course, 
as you know, with Syria, and you might argue who would know 
better than someone who shares that long border with Syria the 
dynamics there.
    He said, as I was saying, that Asad wants to steer his 
country more towards the middle, and of course he has some 
political dynamics and some generals that make it difficult, 
but he does want to go in that direction; and by passing this 
bill it just will make that harder.
    According to Congressional Research Service, most if not 
all of the sanctions contemplated by the Accountability Act, 
the Syria Accountability Act, can already be imposed by the 
administration. Through the good work of Chairman Lugar, the 
House-passed version of the bill will be amended here in the 
Senate to give the President more flexibility in waiving the 
bill's sanctions. This means that a bill that a bill is widely 
perceived as a crackdown on Syria, but it has little 
substantive effect.
    So is this legislation really a lose-lose for the United 
States? Are we getting little additional muscle against Syria 
while further antagonizing the Arab world? I also say on our 
trip to the region, the same was true in Jordan; we heard the 
exact same thing: This passage would be a mistake; we are doing 
exactly what I said, forcing Syria to react in the opposite 
direction, and that the timing is not good.
    Can you comment, Secretary Burns?
    Ambassador Burns.  Yes, sir. First, I would say that I hope 
that the impression that you heard from Turkish leaders is 
right. I hope that we will see actions on the part of the 
Syrian leadership that open up further possibilities in the 
future to work together on issues, whether it is Iraq or in 
other areas.
    As I said in my opening remarks, unfortunately we have not 
seen that kind of a fundamental change in behavior so far. The 
administration's position, as you know, sir, with regard to the 
Syria Accountability Act is that we are not going to oppose its 
passage. We are quite appreciative of the efforts of the 
chairman and others to look at ways in which the President's 
flexibility in conducting foreign policy and our policy towards 
Syria can be preserved, and we believe that is very important, 
and we will take a careful look at the language as it emerges.
    I think finally, Senator, it is hard for me to assess right 
now what the impact of passage of the Syria Accountability Act, 
should it be passed by the Congress, will be on Syrian 
behavior, on our relations with Syria. We have made very clear 
in repeated conversations with the Syrian leadership that 
inaction in the areas Secretary Powell first outlined last May 
is going to have consequences.
    We have made equally clear, as I said before, our 
willingness to build on issues or areas that should be of 
common concern for us. So I can only hope, I guess to conclude, 
that we will begin to see that kind of movement.
    But in the mean time, we have to recognize that we have 
some quite significant problems in the relationship and those 
problems are reflected in the Syria Accountability Act.
    Senator Chafee.  As you testified, you do not know how 
Syria will react. So is it not worth the risk, if already the 
President has the powers to impose sanctions? Why take the risk 
on a high profile? We all know how these types of legislation 
get high visibility in the Arab world. Why even risk it if you 
do not know how they will react? The President already has the 
powers. Is it just the train is going down the track, you know 
the votes are going to pass, and you cannot stop it, so you are 
just having a not-opposed attitude? But why take that risk?
    Ambassador Burns.  Well, sir, as I said, we obviously hope 
that not just the Syria Accountability Act should it pass, but 
the other points we have tried to emphasize in our direct 
contacts with the Syrians--and I would add also in what we have 
urged others, our friends in Europe, in the Quartet, and in the 
region, to emphasize to the Syrians in their own contacts, that 
that will have an impact.
    So our hope is, not just in terms of disincentives, which 
the Syria Accountability Act represents, but also in terms of 
the potential for a more normal kind of relationship, which we 
believe to be very much in Syrian self-interest, that taken 
together those steps will have an impact. But our position on 
the Syria Accountability Act remains as I described it.
    Senator Chafee.  All right, very good. Thank you.
    Thank you.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Coleman.

                STATEMENT OF HON. NORM COLEMAN,
                  U.S. SENATOR FROM MINNESOTA

    Senator Coleman.  Thank you, Mr. Chairman.
    Gentlemen, I greatly appreciate your testimony, clearness 
in an area in which there is not always clarity. I believe we--
I think we would all like Asad to steer a course to the middle. 
If we could get there that would be great. My question is how 
we get there, and I think first we have got to look at how they 
act or how they are acting.
    Clearly, in the buildup to Operation Iraqi Freedom and your 
testimony, Secretary Burns, illicit oil trade, illicit 
transshipment of dual use and military-related items, I think 
night goggles that were used to kill our soldiers potentially, 
and today very clearly Syria being involved in supporting Hamas 
and Hizballah and a whole range of terrorist organizations that 
kill people; and as I read the testimony, not just in terms of 
sometimes a physical presence, but operationally. It seems that 
this is an operational center for folks that are out there 
undermining the peace process, taking lives.
    So the question is how do you impact that? It appears to me 
that this, quote, ``pragmatic'' formula is that the stronger we 
are, the more likely they will be to perhaps steer a middle. 
But it does not seem like it is because there is a desire to 
steer a middle. It does not seem like because there is an 
interest in it. It is because if we are strong all of a sudden 
they may stop doing what they are doing and have been doing for 
a long time, which is supporting terrorism.
    Are there--help me understand if that is it. It almost 
seems as if they kind of play with two hands: On the one hand 
they take some actions regarding al-Qaeda and when it looked 
like we were plowing through Iraq those seemed to be 
substantive actions; and at the same time, it is like somebody 
picking your pocket, in this case I think more than picking 
your pocket, I think clubbing you over the head with support of 
terrorism.
    Other than being strong, in which we force somebody to 
simply do the right thing, are there other things that we can 
do vis a vis with Syria? How do you deal with a nation like 
this beyond just simply being stronger than they would like you 
to be?
    Ambassador Burns.  Well, Senator, a very complicated issue 
which we now continue to wrestle with. Obviously, success in 
Iraq, success in our other policies in the region, is 
critically important, as both Senators Lugar and Biden 
emphasized.
    Second, we continue to stress our commitment to 
comprehensive peace in the region. It is important for us to 
continue to do everything we can to revive some hope in the 
Road Map and in prospects for peace between Palestinians and 
Israelis and to keep the door open on the Syrian and Lebanon 
tracks as well.
    It is important for us in our conversations, not just 
directly with the Syrians but also with the Quartet, with the 
other European friends, with other partners in the region, to 
work with them to help drive home those same points in Syria, 
because this is not just an interest of the United States. It 
is I believe a widely shared interest.
    We hope also that that longer term need, which is as true 
in Syria, at least as true in Syria, as any other society in 
the Arab world, to modernize economically, to open up more 
educational and political opportunities, is going to be a 
direction in which that regime wants to move.
    So again, I do not have any magic formula to offer, 
Senator. It requires an awful lot of hard work. It requires a 
lot of very candid discussions. It requires us drawing lines 
where we have to draw lines on aspects of Syrian behavior, and 
that is what we are determined to do.
    Senator Coleman.  I appreciate that. I would note in 
particular with other partners. If other partners came to us 
and said Asad is trying to steer towards the middle, go back 
and tell them: Well, tell him to stop supporting Hizballah 
because they are going to try to kill us, stop supporting Hamas 
because they are undermining the possibility of peace in the 
Middle East. And to Abdullah, who has been a good ally and 
somebody I believe we can trust, the same message, though: 
Deliver the message to the Syrians that if there is to be peace 
they have got to be part of the process and they have got to be 
part of the solution, not, as we used to say in the sixties, 
simply part of the problem.
    Ambassador Burns.  Yes, sir, Senator. The only thing I 
would add to that is that is particularly true with regard to 
the legitimate aspirations and interests of Palestinians in 
moving toward a state. The actions that groups like Hamas and 
Jihad have taken have done as much to undermine those 
aspirations as anything else, made it that much more difficult 
for the Palestinian Authority to pull itself together and 
provide the kind of leadership that the Palestinians need and 
deserve.
    That is a message that the Syrians need to hear, not just 
from us but from others as well.
    Senator Coleman.  You have a difficult job in a difficult 
area of the world, and I appreciate the work that you do.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Coleman.
    Senator Biden.
    Senator Biden.  I am anxious to get to the second panel as 
well, Mr. Chairman, but I have one question.
    Bill, can you tell us a little bit about U.S.-European 
attitudes and where they diverge relative to Syria? The 
Europeans historically have had a slightly different take on 
all the Middle East, quite frankly, than we have. That does not 
suggest that their take has anything to do--that it is 
intentionally counterproductive to our interests.
    But do our allies in Europe agree with our approach to 
Syria? Is there any realistic possibility of getting on the 
same page and forging a united front with regard to Syria and 
their support of terror? Tell me a little bit about--you should 
have a lot of discussions with them as well. I mean, where are 
we in terms of that dynamic?
    Ambassador Burns.  I think it is a very important point, 
Senator. Obviously, the Syrians need to hear, if we are going 
to have any impact on their behavior, not just from the United 
States, but from others. I think some of our friends in Europe 
have been pretty direct with the Syrian leadership about some 
of the concerns that I described to you today, again simply 
because they reflect real concerns on the part of Europeans as 
well.
    That is certainly true with regard to Syria's support for 
terrorist groups. I think it is increasingly true also with 
regard to the negative impact that Syrian harboring of those 
groups has had on the chances to revive the Road Map. Some of 
our Quartet partners have also been pretty direct with the 
Syrians about those concerns.
    At the same time, we have all tried to make clear that the 
door is open toward comprehensive peace, that this 
administration, like its predecessors, is committed to doing 
everything we can to work with the parties to revive progress 
on that track as well. So I guess to answer your question, 
Senator, I think there is potential to do more with our friends 
in Europe on the issue of Syria. I think we need to keep 
working hard at it. I would not want to pretend to you that our 
interests and approaches are identical because they are not, 
but I think there is a fair amount of overlap, which we need to 
keep working on.
    Senator Biden.  Well, it seems to me that to the extent 
that we could harmonize those views we would have a--maybe I 
have been here too long, but I remember when we used to say--I 
remember when the gentleman about to testify was ambassador in 
that area of the world and we always talked about it in terms 
of U.S.-Soviet influence, and we talked about the Syrians 
having a godfather to the north and the reason we were not 
going to make much progress with Syria.
    And when the wall came down and when the Soviet empire 
crumbled and the ability of or the desire, both ability and 
desire, of the former Soviets, now Russians, was not nearly as 
invasive or involved or as capable of affecting events, there 
was the brief moment where there was hope that the rest of the 
world united would be able to bring some sense with a common 
purpose, a common front.
    It seems to me that is one of the real lost opportunities. 
I do not mean just--I am not talking about this administration, 
the last administration. I mean, rationalizing the policy to 
the extent that you can.
    I did not tell the truth there. I have one more question. 
Mr. Black, I asked you this in a different context, but if you 
are able to publicly answer this it would be useful. Has the 
United States concluded that weapons of mass destruction from 
Iraq were dispersed to Syria, as General Clapper of the 
National Imagery and Mapping Agency told the New York Times? Do 
you have any hard evidence that that is the case, as stated by 
Clapper, General Clapper, that Iraqis did disperse to Syria 
weapons of mass destruction?
    Ambassador Black.  I appreciate the question. I will have 
to take it for the record. I specialize in counterterrorism. 
Weapons of mass destruction is the preserve of others. If I 
may, Senator, let me take that for the record and get back to 
you on that.

    [The information referred to above was not available before 
this hearing was sent to press.]

    Senator Biden.  Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Biden.
    Let me just carry that one step further. Are any of our 
allies, or at least countries with whom we have very strong 
relations, in addition to our European allies, active with us 
in our diplomacy with Syria? For example, have Egypt, the Saudi 
Arabians, or anyone else in the neighborhood, for maybe their 
own national interests, been involved with us in moving the 
Syrians toward a more constructive situation?
    Ambassador Burns.  Yes, sir. We have had extensive 
conversations with the Egyptians, with the Jordanians, as well 
as with the Saudis and others, about this issue. It was a 
subject, for example, in Secretary Powell's meeting with 
President Mubarak about a week ago in Sharm el Sheikh. So it is 
natural for us to consult carefully with our friends in the 
region.
    We do not always see eye to eye on these issues, but I 
think there is a shared interest in trying to drive home the 
message about working as hard as we all possibly can to fight 
terrorism and violence, which again have done so much to 
obstruct our deep interest in reviving hope in the Road Map. I 
am sure those consultations will continue and I am sure efforts 
will continue on the part of our friends in the region.
    The Chairman. I join all members of our committee in 
thanking you--
    Senator Boxer.  Could I have--
    The Chairman. Yes, I am sorry.
    Senator Boxer.  I just snuck in on you.
    The Chairman. Senator Boxer.

                STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer.  Thank you. Thank you so much. In the nick 
of time, I stopped the inevitable gavel.
    The Chairman. Exactly.
    Senator Boxer.  As the author of the Syria Accountability 
Act, I want to thank Chairman Lugar for his help now. He is 
very determined that we have a waiver, the broad waiver. It is 
in place, and I think we are ready to go.
    I wanted to, because I know there are some who do not favor 
it, to lay out why I think it is important very briefly and 
then ask one question to you, either of you who wishes to 
answer.
    I have always believed in life that the truth will set you 
free. You have to tell the truth. I especially think it is 
important in foreign policy. Now, clearly diplomacy means that 
you tell the truth in the most sensitive way, and you are the 
masters of that. I am not good at that, but you are very good 
at that, and I really have to say that our chairman and ranking 
member are very good at that. I am a little more to the point, 
although I think Senator Biden is known for speaking straight 
from the shoulder quite often.
    But when it comes to Syria, it is about time we just told 
the truth. I feel that way about Saudi Arabia, although I do 
not quite know what the truth is because we cannot get 
information that we really ought to have. But that is another 
hearing for another time.
    So really what we are saying is that the President can 
impose sanctions, and I wanted it to be must impose sanctions, 
but with the compromise he can impose sanctions, which I think 
are very wisely ratcheted up, if Syria does not cease providing 
support for international terrorist groups and does not allow 
terrorist groups such as Hamas, Hizballah, Palestinian Islamic 
Jihad, and others to maintain facilities in territory under 
their control.
    This is a terrible problem. This is a haven for terrorists. 
You know, as the President said after 9-11, we cannot have 
people shielding terrorists. So we can no longer walk away. I 
am the happiest person when Syria helps us in some way or 
another. I encourage that. But still in all, you cannot really 
help us in the long run if you are allowing these terrorists to 
be there.
    Lebanon occupation, another one. Development and deployment 
of long-range ballistic missiles and research into such 
weapons, and ceasing all support for terrorist activities 
inside of Iraq, and I know others have talked about that.
    So what do we do here? We just simply give the President 
or, shall we say, we--as Senator Chafee said, the President 
could do this anyway, but the Congress will go on record when 
we finally pass this act, which I think is long overdue--and I 
disagreed so strongly with the administration when Secretary 
Powell said this will not helpful, having this act, this will 
not be helpful. That was just a few months ago.
    Then he went over there and sat with Syria and said: You 
know, you have got to watch out for that Congress; they are 
going to pass the Syria Accountability Act. Well, I thought 
that was pretty helpful of us to have that there.
    So you know, I just think when I look at this list: 
prohibiting export to Syria of any item on the U.S. munitions 
list, imposing two or more of the following sanctions: the 
export of products of the U.S. other than food and medicine to 
Syria; and prohibiting U.S. business from investing and 
operating; prohibiting Syrian aircraft from taking off or 
landing in the U.S. And it goes on: diplomats in D.C. can only 
travel within a 25-mile radius.
    That is harsh. It is very harsh. But what they are doing is 
harsh. And if we hope to wrap our arms around this terrorism 
issue, we have to start telling the truth and putting something 
behind it. Frankly, if you were to ask people, I am a person 
what so hesitates to move towards war. I am probably the last 
person, one of the last, that will vote for war. I have done 
it, but I do it very rarely.
    So why would I support this? Because this is a way to avoid 
a military confrontation, because we are sending a very clear 
signal. We are not going to surprise someone in the middle of 
the night and attack them. We are saying this is bad, this is 
wrong, this goes against world norms, and we are ready to push 
forward with economic sanctions.
    I think that is a way to avoid a confrontation. That is the 
last thing we need. It is the last thing we want. We all want a 
peaceful world.
    So my question, and then I am done, is: What really 
triggered the change of the administration on my bill? That is 
my question.
    Ambassador Burns.  Thanks, Senator Boxer. I think we have 
worked very hard, and I do not think anybody has worked harder 
than Secretary Powell, to try and speak the plain truth on 
these issues, as candidly and directly as we could with the 
Syrian leadership. We continue to hope for changes in Syrian 
behavior and we will continue to work hard to achieve them, but 
hope alone is not a reliable basis for policy. The 
administration has recognized that there are elements of Syrian 
behavior right now which cause real problems for our interests, 
as they have for years.
    It was against that backdrop that the White House took the 
decision that we would not oppose the passage of the Syria 
Accountability Act. As I said, it is very hard--as I said, I am 
sorry, Senator Boxer, before you came--
    Senator Boxer.  I am sorry, I am involved with these fires.
    Ambassador Burns.  Not at all, no.
    It is hard to predict what the impact is going to be. We 
certainly hope that the passage of the act, should it be 
passed, as well as our continuing direct efforts with the 
Syrians, our efforts with the Europeans and others, is going to 
have an impact, a positive impact.
    Senator Boxer.  So there was not anything specific that 
changed your mind that they are doing since the war or anything 
else? It is just an accumulation of behavior that all of a 
sudden you thought this is the time?
    Ambassador Burns.  It is an accumulation. I am not sure if 
it was an all of a sudden decision as much as it is an 
accumulation of efforts on our part that did not produce, have 
not yet produced, all the results we want to see. We are going 
to keep at it, keep open the possibility of more normal 
relations, but that is going to require tangible actions on the 
part of the Syrian leadership.
    Senator Boxer.  Thank you for your flexibility.
    Thank you, Mr. Chairman, very much.
    The Chairman. Well, thank you very much, Senator Boxer, for 
coming to the hearing at a timely moment.
    Senator Boxer.  Yes, right.
    The Chairman. Well, we thank you both again, and we will 
now proceed with our next panel. That panel includes Dr. 
Patrick Clawson, the Honorable Richard Murphy, Dr. Murhaf 
Jouejati, and Mr. Flynt Leverett.
    Gentlemen, thank you very much for joining us this morning. 
I would like for you to testify in the order that I introduced 
you, and that will be first of all Dr. Patrick Clawson. Please 
proceed.

     STATEMENT OF PATRICK CLAWSON, PH.D., DEPUTY DIRECTOR, 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Dr. Clawson.  Thank you, sir. Let me summarize my 
statement, please.
    Since assuming the Syrian presidency in June 2000 on the 
death of his father, Hafez Al-Asad, Bashar Asad has established 
a track record. The regime change in Syria has been bad for 
Syria, bad for the Middle East, and bad for U.S.-Syrian 
relations. In every area of concern to the United States, 
Bashar Asad's rule has been worse than that of his father, 
which is impressive given how bad a ruler was his father, and 
the problems are growing, not diminishing.
    Let me just briefly summarize the areas where Bashar's 
track record has been worse than that of Hafez Asad. On the 
areas where we had differences with Hafez Asad and where we had 
good reason to hope that Bashar would make a difference, things 
have gotten worse. For instance, anti-peace process terrorism. 
My boss, the Director of the Washington Institute, Dennis Ross, 
has written in the Wall Street Journal, ``Hafez Asad was no 
slouch when it came to threatening Israel, but he controlled 
the flow of Iranian arms to Hizballah and he never provided 
Syrian weapons directly. Bashar Asad seems to lack his father's 
sense of limits.''
    Hafez Asad never met with the secretary general of 
Hizballah, Mr. Nasrollah. Bashar Asad meets with him frequently 
and treats him like his senior adviser and mentor.
    Second, weapons of mass destruction. Rather than just 
maintaining the already troubling capabilities that Syria had 
when he came to office, Bashar Asad has plowed ahead with 
developing more sophisticated capabilities, worse chemical 
weapons, and longer range missiles.
    On Lebanon, despite Israeli withdrawal in May 2000, Bashar 
Asad has insisted that Hizballah retain its arms, thereby 
making it a destabilizing and radical force in Lebanese 
politics.
    On economic and political reform, the great hope was that 
Bashar Asad would make economic growth his priority, and indeed 
there was a Damascus spring with limited liberalization when he 
came to office. But winter set in early. For participating in 
civil society meetings 2 years ago, 10 human rights activists 
have been sentenced to prison for 2 to 5 years and just this 
week a military court is trying 14 more human rights activists.
    On the areas where Hafez Asad had some minimal cooperation 
with U.S. interests, things have gotten worse under Bashar. 
Peace negotiations with Israel, they are completely shut down. 
Damascus now rarely bothers to pretend that it is willing to 
talk to Israel. On the issue of Iraq, under Hafez Asad for 
better than 10 years there was a ``do no evil'' approach, not 
getting in the way of U.S. policy towards Iraq. Now, instead 
Bashar Asad has shown a willingness to work with the worst 
forces in Iraq. Not only did he cooperate closely with Saddam 
Hussein on economic relations while Syria was still in power, 
but even as Saddam's regime was falling Bashar Asad remained 
friendly and provided assistance to the Saddamites.
    Then finally there is the question of radical Islamist 
terrorism. One can complain about many things about Hafez Asad, 
but he had a firm hand, indeed a cruel and inhuman hand, toward 
Islamist terrorists. Bashar Asad I am afraid has changed that 
approach. Initially, after the September 11th, 2001, attacks 
Syria did cooperate with the United States against al-Qaeda, 
but that has changed.
    Ambassador Black, Mr. Black, was referring earlier to our 
ambiguous--our dissatisfaction, excuse me, with the ambiguous 
record of the Syrians. Let me just note, there was a very 
interesting case in Italy recently in which the Italian 
prosecutors going after an al-Qaeda cell showed that Syria, in 
their words, had ``functioned as a hub for an al-Qaeda 
network,'' and the detailed telephone wiretaps that the Italian 
police presented showed how this al-Qaeda cell had been 
coordinating its activities in Syria and through Syria.
    So Bashar Asad seems to be campaigning to join the axis of 
evil. He needs to be confronted with a starker choice: bigger 
sticks if he persists in his path, but bigger carrots if he 
makes significant progress in some of the areas of our concern.
    Whether or not the Syria Accountability Act becomes law, 
the United States has a variety of other instruments it could 
use to turn up the heat on Syria. The Asad regime cares deeply 
about statements by top U.S. officials about the legitimacy of 
that government and there is much that we can do to reach out 
to support pro-democracy activists in Washington. It is 
interesting to note that in 2 weeks time there will be a 
meeting here in Washington of Syrian pro-democracy activists.
    Two years ago, the Washington Institute for Near East 
Policy published an optimistic monograph full of hope the 
Bashar Asad would improve governance, open up Syria to the 
outside world, let Lebanon regain its sovereignty, and make 
peace with Israel. That study, prepared under my direction by 
an Israeli scholar, showed what an opportunity Bashar Asad had. 
He has not made good use of his first 3 years.
    Let us hope that, if faced with starker choices between a 
better future and real risks for his regime, he will make 
better use of the coming years.
    Thank you, sir.

    [The prepared statement of Dr. Clawson follows:]

                 Prepared Statement of Patrick Clawson

    Since assuming the Syrian presidency in June 2000 on the death of 
his father Hafez Al-Asad, Bashar Al-Asad has established a track 
record. The regime change in Syria has been bad for Syria, bad for the 
Middle East, and bad for U.S.-Syrian relations. In every area of 
concern to the United States, Bashar Asad's rule has been worse than 
that of his father--which is impressive, given how bad a ruler was his 
father. And the problems are growing, not diminishing. The risk is that 
if Washington basically ignores Syria, Bashar Asad will go from bad to 
worse.
    Bashar Asad's track record makes depressing reading. Things have 
gotten worse in the areas where Hafez Asad was a problem--and where 
there was good reason to hope Bashar Asad would make improvements:

  <bullet> Anti-peace-process terrorism. Commenting about Bashar Asad's 
        provision to Hizballah of Syrian 270 mm rockets which threaten 
        Israel's third largest city (Haifa), Washington Institute 
        Director Dennis Ross wrote in the Wall Street Journal, ``Hafez 
        Asad was no slouch when it came to threatening Israel. But he 
        controlled the flow of Iranian arms to Hizballah, and he never 
        provided Syrian weapons directly. Bashar Asad seems to lack his 
        father's sense of limits.'' <SUP>1</SUP> Besides the provision 
        of these dangerous rockets, another sign of Bashar Asad's 
        imbalance is that Hafez Asad never met with Hizballah Secretary 
        General Sayyed Hassan Nasrollah; Bashar Asad not only meets and 
        telephones Nasrollah often, but Bashar Asad goes so far as to 
        treat Nasrollah like his respected mentor and advisor. While 
        Bashar Asad promised Secretary of State Colin Powell during his 
        May 2003 visit to Damascus that Syria would take concrete steps 
        against terrorists operating out of Syria, Powell has described 
        Syria's actions since then as ``limited steps'' which ``are 
        totally inadequate.'' <SUP>2</SUP>
---------------------------------------------------------------------------
    \1\ Dennis Ross, ``The Hidden Threat in the Mideast,'' Wall Street 
Journal, June 24, 2002.
    \2\ Press conference by Colin Powell, June 20, 2003.

  <bullet> WMD. Rather than just maintaining Syria's already troubling 
        capabilities to hit Israel with hundreds of CW-tipped Scud 
        missiles, Bashar Asad has ploughed ahead with developing more 
        sophisticated capabilities, including more toxic and persistent 
        chemical weapons such as VX and longer-range missiles. 
        According to reports from the CIA, Syria is building up a 
        domestic missile industry, working on both solid propellant and 
---------------------------------------------------------------------------
        liquid propellant product capabilities.

  <bullet> Lebanon. Hafez Asad had the excuse of Israeli occupation of 
        southern Lebanon which he could claim as justification for the 
        continued Syrian military presence in Lebanon and for Syria's 
        insistence that Hizballah be allowed to have a potent military 
        militia, years after all civil-war-era militias were disarmed. 
        Israeli withdrawal in May 2000 ended that excuse, but Bashar 
        Asad has insisted that Hizballah retain its arms, thereby 
        making it a destabilizing radical force in Lebanese politics. 
        He has pulled about half of the 30,000 Syrian troops out of 
        Lebanon but he has used Syrian secret police to continue to 
        control the increasingly restive Lebanese.<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Estimates of Syrian troop strength in Lebanon differ; the 
source here is Alfred Prados, ``Syria: U.S. Relations and Bilateral 
Issues,'' Congressional Research Service paper IB92075, updated October 
10, 2003, p 5.

  <bullet> Economic and political reform. The great hope was that 
        Bashar Asad would make economic growth his priority, and that 
        he would therefore allow more space for the private sector and 
        more interaction with the outside world--civil society could 
        begin to emerge. Initially, there was a Damascus Spring with 
        limited liberalization--but winter came early, as those 
        expressing criticisms were rounded up. For participating in 
        civil society meetings in 2001, ten human rights activists were 
        sentenced to prison for two to five years.<SUP>4</SUP> Last 
        week, a military court began a kangaroo trial of fourteen human 
        rights activists arrested for attending an August 2003 lecture 
        marking the fortieth anniversary of the declaration of a state 
        of emergency in Syria. Meanwhile, the September 2003 government 
        reshuffle bodes ill for the few economic reforms Bashar Asad 
        instituted in his first year. The new prime minister, Muhammad 
        Naji Otri, can best be described as an old-style Ba'athist 
        hack.
---------------------------------------------------------------------------
    \4\ Amnesty International regularly covers the miserable human 
rights situation in Syria; cf. its October 21, 2003 press release about 
the start of the military court trial.

    And on the areas where Hafez Asad had at least some minimal 
cooperation with U.S. interests, things have gotten dramatically worse 
---------------------------------------------------------------------------
under Bashar Asad:

  <bullet> Peace negotiations with Israel are completely shut down. 
        Damascus rarely bothers to pretend it is willing to talk to 
        Israel. Syria has been unhelpful to initiatives to advance the 
        peace process, including its efforts to twist the 2002 Saudi 
        initiative at the Arab League to convert it from an offer to 
        Israel normal relations with the Arab world into a restatement 
        of maximalist Arab demands. Furious at the Saudi initiative, 
        Bashar Asad went so far as to organize a rare mass protest in 
        Damascus against the plan. Syria has encouraged the fiction 
        that Israel has not fully withdrawn from Lebanon, despite the 
        UN Security Council's firm determination that Israel has 
        fulfilled its obligations under UN resolutions. Syrian policy 
        appears to confirm the skeptics who thought that an Alawite-
        dominated government wants to keep the conflict with Israel 
        going so as to justify its repressive rule as necessary for 
        national unity against the external enemy.

  <bullet> The ``do no evil'' approach towards Iraq has been replaced 
        with a bold willingness to take risks to work with the worst 
        forces in Iraq. Whereas his father had a cold if not hostile 
        relationship towards Saddam, Bashar Asad embraced him, re-
        opening an oil pipeline which had been closed for twenty years; 
        between one and two billion dollars a year worth of oil flowed 
        through that pipeline, though it is not clear how the revenue 
        was shared between the two dictators. Bashar Asad flat-out lied 
        to Secretary of State Colin Powell when he personally promised 
        in March 2001 that any revenue from the pipeline would go into 
        the UN oil-for-food program--a promise Powell thought 
        sufficiently important that he had President Bush woken to 
        share the good news. To be sure, in November 2002, Syria voted 
        in the UN Security Council for Resolution 141 demanding Iraqi 
        compliance with past UN orders, but it seems that Syria, like 
        France, believed that resolution could be invoked to prevent 
        U.S. military action against Iraq.
      Syrian policy got worse as the war approached. Secretary of 
        Defense Donald Rumsfeld has accused Syria of sending Saddam's 
        forces on the eve of the war night-vision goggles, antitank 
        weapons, aircraft parts, and ammunition.<SUP>5</SUP> During the 
        war, Bashar Asad allowed thousands of irregulars to cross the 
        border to fight on Saddam's side; busloads of Syrian jihadists 
        were joined by warriors from across the Arab world. What is 
        particularly difficult to understand is why Bashar Asad 
        remained friendly to the Saddam clan even after they lost 
        power; Rumsfeld has accused Damascus of providing safe haven to 
        fleeing Ba'ath officials.<SUP>6</SUP> As recently as September, 
        both Defense and State Department officials referred to a 
        continuing flow of resistance volunteers across the Syrian 
        border.<SUP>7</SUP> There are credible reports that Syria 
        remains a safe haven for former Saddamites. Treasury Department 
        officials have pressed Syria, with no known success, to live up 
        to its obligations under UN Security Council Resolution 1443 to 
        surrender to the U.S.-administered Fund for Development in Iraq 
        the $3 billion in Iraqi assets held in Syrian-controlled 
        banks.<SUP>8</SUP>
---------------------------------------------------------------------------
    \5\ For references, see Max Abrahms, ``When Rogues Defy Reason: 
Bashar's Syria,'' Middle East Quarterly, Fall 2003, p 53.
    \6\ For references, see the excellent article by Eyal Zisser, 
``Syria and the United States: Bad Habits Die Hard,'' Middle East 
Quarterly, Summer 2003, pp 29-38.
    \7\ See Prados, ``Syria: U.S. Relations,'' p 6.
    \8\ Douglas Jehl, ``U.S. Believes Syrian Banks Hold $3 Billion in 
Iraqi Funds,'' New York Times, October 21, 2003, p. A8.

  <bullet> The firm--indeed, cruel and inhumane--control over Islamists 
        under Hafez Asad has been replaced with a permissive attitude 
        for those who wish to attack U.S. interests. The concern in 
        Hafez Asad's time was his vicious repression of those with even 
        modest Islamist tendencies, most evident in the 1982 slaughter 
        of 10,000 residents of Hama. Initially, the hope was that 
        Bashar would ease the state's heavy hand on the genuinely 
        religious while at the same time preventing radical Islamist 
        terrorists from using Syrian soil. And indeed, right after the 
        September 11, 2001 attacks, Syria did cooperate with the United 
        States in going after al-Qaeda elements. But as State 
        Department coordinator for counterterrorism Coffer Black said 
        in May 2003, ``We clearly don't have the full support of the 
        Syrian government on the Al-Qaeda problem. They have allowed 
        Al-Qaeda personnel to come in and virtually settle in Syria 
        with their knowledge and their support.'' <SUP>9</SUP> 
        Moreover, according to Italian prosecutors in their indictment 
        of al-Qaeda members, ``Syria has functioned as a hub for an al 
        Qaida network.'' The Italian police wiretaps found that the 
        suspects'' conversations ``paint a detailed picture of 
        overseers in Syria coordinating the movement of recruits and 
        money.'' As State Department spokesman said on October 8 when 
        asked about the Syrian Accountability Act, ``Frankly, the 
        Syrians have done so little with regard to terrorism that we 
        don't have a lot to work with.'' <SUP>10</SUP>
---------------------------------------------------------------------------
     \9\ Black's statement and the Italian indictment referred to in 
the next sentence are from Matthew Levitt, ``Terror from Damascus, Part 
II: Hizballah and Al-Qaeda Terrorist Activity in Syria,'' Washington 
Institute Peacewatch No. 421, May 9, 2003.
    \10\ Cited in Prados, ``Syria: U.S. Relations,'' p 15.

    And then there is Syrian vitriol directed against the United 
States. Bashar Asad has warned Arabs against U.S. friendship, calling 
it ``more fatal than its hostility.'' <SUP>11</SUP> Syria's attitude 
towards the war with Iraq was spelled out by Foreign Minister Faruq 
ash-Shara: ``We want Iraq's [that is, Saddam's] victory.'' 
<SUP>12</SUP> Bashar Asad seems to be campaigning to join the axis of 
evil. He needs to be confronted with a starker choice: bigger sticks if 
he persists in this path, but bigger carrots if he makes significant 
progress in several of the areas outlined above.
---------------------------------------------------------------------------
    \11\ In his speech at the Arab summit at Sharm al-Sheikh, as 
carried on Syrian television, March 1, 2003.
    \12\ Syrian Arab News Agency, March 30, 2003.
---------------------------------------------------------------------------
    It is in this context that the Syrian Accountability and Lebanese 
Sovereignty Restoration Act of 2003 recently passed the House of 
Representatives. This Act provides the President flexibility, such that 
he could initially impose modest penalties from the list of six in the 
law while at the same time he could suggest to Damascus that failure to 
make progress on the matters of concern to Washington would lead him to 
impose some of the tougher penalties in that list of six. Some might 
say that the Act is largely symbolic, but do not underestimate the 
importance of symbols. The reaction by Damascus to the Act's progress--
extensive coverage in the Syrian press and frequent statements by 
Syrian officials--demonstrates how deeply the Syrian government cares 
about the U.S. stance towards their actions.
    Whether or not some version of the Syrian Accountability and 
Lebanese Sovereignty Restoration Act becomes law, the United States has 
a variety of other instruments it can use to turn up the heat on Syria. 
Washington can hit hard at the legitimacy of the Asad dynasty through 
tough statements from top officials supporting democracy in Syria. 
Radio Sawa, which has a wide audience among Arab youth, could do tough 
reporting about Syria's corruption, human rights violations and 
miserable economic performance. U.S. officials at various levels could 
meet in public with Syrian dissidents. It is encouraging to note that 
there will be a meeting in Washington in two weeks time of Syrian pro-
democracy activists. Were State Department officials to attend the 
meeting, the message to Damascus would be clear.
    At the same time, the United States could consider some carrots. 
Initial steps could build on Bashar Asad's interest in computer 
technology, e.g., providing computer education--either over the 
internet or via a Peace Corps program in Syria--and enhancing training 
opportunities for Syrians in the United States. Should relations 
improve further, Washington could help promote Syria as a place where 
U.S. companies--especially in telecommunications, high tech, and oil/
gas exploration--should pursue business.
    It would be useful if U.S. actions were coordinated with the 
European Union (EU), which is planning to sign a trade association 
agreement with Syria in the near future. Surely it would be appropriate 
for the EU to adopt towards Syria the same stance it has about Iran's 
problematic policies; just as the EU openly says that progress towards 
a trade cooperation agreement with Iran must go hand in hand with 
progress on WMD proliferation, counter-terrorism, the stance on Middle 
East peace, and human rights, so any EU agreement with Syria should be 
contingent on progress on these fronts. The United States could offer 
to the EU that it would help strengthen Brussels hand in negotiations 
on these points by making clear that progress made with the EU would 
also lead Washington to provide trade- and investment-related breaks 
for Syria, e.g., relief on the $366 million in debt Syria owes to the 
U.S. government--relief which would have little practical implication 
for U.S. taxpayers, since Syria has not made payments on that debt for 
years ($245 million is in arrears).
    Two years ago, The Washington Institute for Near East Policy 
published an optimistic monograph full of hope Bashar Asad would 
improve governance, open up Syria to the outside world, let Lebanon 
regain its sovereignty, and make peace with Israel.<SUP>13</SUP> That 
study, prepared under my direction by an Israeli scholar, showed what 
an opportunity Bashar Asad had. He has not made good use of his first 
three years. Let us hope that if faced with starker choices between a 
better future and real risks for his regime, he will make better use of 
the coming years.
---------------------------------------------------------------------------
    \13\ Yossi Baidatz, Bashar's First Year: From Ophthalmology to a 
National Vision, The Washington Institute for Near East Policy, Policy 
Focus No. 41, July 2001.

    The Chairman. Well, thank you very much, Dr. Clawson.
    Ambassador Richard Murphy.

STATEMENT OF HON. RICHARD MURPHY, SENIOR FELLOW FOR MIDDLE EAST 
              POLICY, COUNCIL ON FOREIGN RELATIONS

    Ambassador Murphy. Thank you, Mr. Chairman. Thank you for 
the invitation to speak to the committee. My statement has been 
submitted for the record. I will only touch on its highlights.
    Syria has been a perennial source of frustration for 
successive American administrations, which have nonetheless 
seen fit to stay in as close touch as possible, knowing that 
Damascus could play a key role in a general Arab-Israeli peace 
process. There is a great deal of mutual frustration and our 
meeting today takes place at a time when there is regrettably 
little prospect for forward movement on the Arab-Israeli peace 
process.
    Syria nonetheless, as Dr. Clawson said, it is sensitive to 
statements by American leaders and it very much values 
continued dialogue with the United States. It would, I know, 
welcome a renewed peace process.
    But our dialogue is so often the dialogue of the deaf. We 
see Syria as unresponsive to our demands that it curb 
terrorism. Syria considers that our Middle East policy is so 
biased towards Israel that we blur any distinction between 
actions of terrorists and those engaged in acts of national 
resistance. They would cooperate with us on al-Qaeda, but not 
on Palestinian terrorists or not on the Lebanese Hizballah.
    Second, they complain that we play down how insecure Syria 
and others feel in the Arab world when facing Israel, the 
region's superpower.
    While its negotiating approach is influenced, of course, by 
the history of its dismemberment, that is the territorial 
losses it suffered between the two world wars at the hands of 
Britain and France, it partially explains its longstanding 
conviction that Israel itself was established as part of the 
game of imperialism to divide the Arabs. In its view Israel 
remains expansionist and it argues that a general Middle East 
peace could have been achieved long ago had the Arabs only 
stuck together.
    Well, this year--Ambassador Burns talked about the 
accumulation of frustrations--our frustration, our irritation, 
blew up over events connected with Iraq and the war. The 
administration's withdrawal of its earlier objections to the 
Syria Accountability Act is one of the tangible signs of this 
current attitude. The new problems were over issues of military 
supplies reaching Iraq from Syria before the war and its 
presumed encouragement of fighters crossing the border since 
the war to target our troops. Intelligence is apparently mixed 
both on this latter issue and whether Syria received stocks of 
Iraqi weapons of mass destruction before the war.
    Now, the President has disavowed any intent to invade 
Syria, but Syria is frequently described as on the wrong side 
of terrorism, and there is certainly an appetite for regime 
change in some quarters of this administration. The removal of 
the Saddam Hussein regime was actually a political plus for 
Damascus, eliminating a rival to its leadership claims in the 
Arab east, but a major economic loss in terms of the benefits 
received from discounted Iraqi oil.
    What can Syria do to redirect its policies offensive to the 
United States? Certainly the list would include improving their 
border controls, avoiding encouragement of fighters seeking to 
transit Syria for Iraq, better control over both extremist 
Palestinian organizations, including expelling their leaders, 
and ensuring that Hizballah does not trigger a major conflict 
with Israel. I think the Syrian leadership has been in part 
constrained by the presence of 400,000 Palestinians in Syria in 
how they treat their leaders.
    What should be our policy direction? First and foremost 
would be to find a way to revive the peace process. Syrian 
anxiety at being overlooked tempts it to tolerate and perhaps 
even encourage the acts of Palestinian extremists and 
Hizballah.
    Second, I would like to suggest a different way of dealing 
with Syrian weapons of mass destruction programs. Their extent 
I do not know. Certainly their chemical program has been talked 
of for 20 years--nothing new. But I suggest that we go beyond 
our rhetorical support for a Middle East region free of weapons 
of mass destruction to launch actual negotiations for a 
regional approach to their control. Our current policy is to 
pursue controls on a state by state basis, but excluding 
Israel. We have tended to assume that Israel would fiercely 
oppose a regional approach, preferring to avoid any discussion 
of its arsenal of weapons of mass destruction.
    I think it is time to reexamine this in the light of what 
caught my attention in a recent article in the Los Angeles 
Times, that Israel was considering placing nuclear-tipped 
warheads on its missiles in its submarines. Now, the sources 
were anonymous, easily deniable, and they were quickly denied. 
But they provide a tantalizing hint that Israel just might be 
ready to use awareness of its arsenal in a new way.
    Could this mean that it might be prepared to go beyond the 
position of Prime Minister Rabin in the mid-nineties, that 
Israel would sign the NPT 2 years after a regional peace had 
been achieved one that would include more than the Arab world? 
Verification procedures for a regional free zone would have to 
meet the most demanding standards. Additional U.S. bilateral 
guarantees of Israeli security would probably be required.
    I have offered this suggestion believing that any approach 
that might restrain the rush throughout the region--and we have 
been worried sick ever since it started in South Asia and moved 
west--to acquire nuclear, chemical, and biological warfare 
capabilities should be explored. The risk of a broader conflict 
must always be in the minds of our policymakers. Israel's 
October 5 attack on the terrorist training center in Syria was 
warning that further actions could come and the problem could 
escalate. And a regional approach to arms control could also 
help rebuild our credentials as a dependable, fair-minded 
mediator in the Middle East.
    Thank you, Mr. Chairman.

    [The prepared statement of Ambassador Murphy follows:]

                Prepared Statement of Richard W. Murphy

    Mr. Chairman, thank you for your invitation to testify to the 
committee on the current direction of U.S. policy towards Syria.
    The current state of U.S.-Syrian relations is poor and, 
regrettably, I see no early prospect of significant improvement. The 
sense of mutual frustration in Washington and Damascus is sharp, and 
the prospect that this will add tensions to an already highly unstable 
region is worrisome. Each perceives the other as deaf to its positions 
and neither displays much readiness to accommodate the other. The 
Administration views Syria as unresponsive to its demands to curb 
terrorism and to cooperate fully with Washington on Iraq. Syria 
considers America's regional policy so biased towards Israel that it 
overlooks how insecure this makes Syria, and other Arab states.
    The United States has played the indispensable role since the 1973 
war in communicating between Syria and Israel, and at times actively 
mediated negotiations for an overall agreement. Many in Washington have 
recognized that while Damascus can be irritating and frustrating to 
deal with, Syria has the potential to play a key role in establishing a 
general peace in the region. This paradox has kept successive American 
presidents and secretaries of state convinced of the value in 
maintaining a dialogue with Damascus. For its part, Syria has 
consistently wanted to maintain a dialogue with Washington, despite the 
stormy political relationship.
    The President and senior officials have disavowed any intent to 
invade Syria, stating that there are other ways to resolve our 
disagreements. However, for a variety of reasons including differences 
over the definition of terrorism, Lebanon, and Iraq policy, tensions 
between the two countries are increasing. The White House withdrawal of 
its earlier opposition to congressional action on the Syrian 
Accountability Act is a clear signal of this.
    Two American initiatives could reverse the downward spiral of U.S.-
Syrian relations: restarting the Arab-Israeli peace process and U.S. 
sponsorship of negotiations for a WMD free zone in the Middle East. 
Both present tough but not insuperable challenges. Without our 
undertaking one or both, I suspect that the American appetite for 
regime change in Damascus will increase, as Damascus remains obstinate 
because it sees few incentives to behave differently.

     I. SOURCES OF SYRIAN-U.S. FRICTIONS: TERRORISM, LEBANON, IRAQ

Syrian Attitude Toward Terrorism
    One of the sorest points in the U.S.-Syrian relationship has been 
Syria's sponsorship of groups which Washington considers terrorist. We 
disagree over what constitutes terrorism. Damascus considers that 
Washington deliberately blurs the distinction between terrorism and 
legitimate acts of national resistance. Thus it could fully cooperate 
with the U.S., for at least the first year following 9/11, against al-
Qaeda, which it agreed had engaged in illegitimate attacks on 
innocents. But it classifies as legitimate resistance any organizations 
connected with the Arab-Israeli conflict. This includes the religiously 
inspired organizations, such as the Lebanese Hizballah militia and 
Palestinian Islamic Jihad and Hamas, and the several radical secular 
Palestinian factions, such as the PFLP-GC. All of these have had 
representatives in Damascus.
    Washington reportedly has evidence that operational orders have 
been given from these offices and that the leaders are not there just 
for public relations purposes as claimed. After Secretary Powell's last 
visit to Damascus the Syrian government closed the offices of the 
Palestinian factions, but the personnel involved continue to live in 
Syria. The Syrian government has said that these individuals cannot be 
expelled because they have no place to go.
    Israel's October 5 attack on what it called a terrorist training 
site a dozen or so miles from Damascus was its first attack on Syrian 
territory since 1973. There was no Syrian military reaction. President 
Bashar Al-Asad said that ``what happened will only make Syria's role 
more effective and influential in events in the region . . .'' Was this 
a threat of a Syrian reply through proxies such as Hizballah and 
Palestinian extremists? It may simply have been his way of 
acknowledging Syria's own incapacity for any meaningful military reply. 
Its military strength has eroded; its principal arms supplier, the 
USSR, is no more; and no supplier is interested in extending Syria 
credit for arms.
    Administration officials have noted pointedly that Syria is ``on 
the wrong side'' of the war against terrorism, and have implied serious 
consequences if Syria does not change its behavior. Influential 
advocates of action against Syria outside the Administration have 
publicly urged the ``roll back'', (words which presumably mean 
``overthrow'') of the Syrian regime. These threats have pushed Syria 
off balance and may explain its decision to soft pedal the deep 
penetration by U.S. forces into Syria in hot pursuit of a convoy of 
trucks last June, and our subsequent detention for several days of 
Syrian border guards.

Lebanon
    The Syrian military presence in Lebanon is an older bone of 
contention. The U.S. first criticized Syria's military presence in 
Lebanon in 1982, using a formula calling for the departure from Lebanon 
of ``all foreign forces,'' i.e. Syrian and Israeli. In 2000 when Israel 
pulled its own forces out from its eighteen year occupation of southern 
Lebanon, America did not immediately demand that Syria do the same. In 
part this was because doubts have persisted in some quarters in Beirut 
and Washington that Lebanon, in the aftermath of its long civil war, 
could afford to dispense with the Syrian military presence. For its 
part Syria consistently defended its presence as one invited by Lebanon 
in 1975, and also as necessary for Syria's own security, citing the 
threat to Syria posed by Israel's 1982 invasion of Lebanon. Secretary 
of State Powell in March revived the demand that Syria remove all its 
forces from Lebanon. In language not generally used by the Secretary 
concerning that situation, Powell called for Damascus to end its 
``occupation.''

Iraq
    A further friction developed just as the Bush Administration was 
entering office. Syria began to test a new pipeline from Iraq, 
connecting with a long disused pipeline across Syria, to the 
Mediterranean. Washington protested that this was breaking the UN 
sanctions, which only allowed the export of Iraqi oil under the UN 
``Oil for Food'' program. Syria disingenuously replied that it was only 
testing the pipeline, asking in any case why Washington was permitting 
both Jordan and Turkey to benefit economically from Iraqi oil while 
coming down hard on Syria.
    Last spring, Washington's frustrations with Syria exploded into 
sharp anger as it charged Damascus with continuing to allow shipment of 
military materiel to Iraq, a traffic which the U.S. had urged it to 
stop for at least a year prior to the Iraqi war. In post-war Iraq, 
Washington has also accused Syria of allowing infiltration of jihadis 
from Syria and other Arab and Muslim countries to target American and 
other coalition forces, and pressed Syria to return official Iraqi bank 
balances.

       II. SYRIAN EFFORTS TO DEVELOP WEAPONS OF MASS DESTRUCTION

    Damascus probably has missile warheads loaded with chemicals and a 
large stockpile of missiles. This has been talked about for at least 
the past fifteen years. Some years back Israeli intelligence privately 
acknowledged that this Syrian capability has probably been developed 
for defensive, not offensive, purposes. Syria may also have researched 
biological weapons, but less is known of this program. The United 
States has criticized Syria's chemical and biological weapons programs 
and some assert that it is seeking nuclear weapons.
    Syria scoffs at the American view that the Arabs have nothing to 
fear from Israeli possession of WMD, but that Israel has everything to 
fear from their possessing WMD. Syria stresses that it has real 
security concerns vis-a-vis Israel.

            III. SYRIA'S UNEASY RELATIONS WITH ITS NEIGHBORS

    Syrian orators often recall the memory of their capital's past 
glories. They describe Damascus as the leader of the Arab East and 
superior, morally at least, to most of the Arab World. Their leaders 
used to attack the behavior of other Arab leaders such as Egypt's Sadat 
and Jordan's King Hussein for weakening Arab Unity through engaging in 
unilateral negotiations with Israel. Syria has consistently maintained 
that a general and lasting Arab-Israeli peace could have been achieved 
much earlier had Arab ranks remained united. They proudly contrasted 
Syria's preservation of a ``principled position of steadfastness'' with 
Egyptian and Jordanian ``betrayal of Arab Unity.'' The fact that Sadat 
achieved through negotiations the return of all of Egypt's territory 
occupied by Israel in 1967, and not through ``steadfastness'' but 
rather through a more practical bargaining position, is an awkward and 
unmentioned fact. This assertion that Syria always takes a principled 
stand understandably galls other Arabs.
    Damascus has long viewed its neighbors in Lebanon and Jordan as 
somehow less legitimate entities than Syria, even in its truncated 
condition caused by its loss of territory engineered by France and 
Britain after the First World War. This mindset has led Syria to reject 
proposals to exchange embassies with Lebanon ever since Syrian and 
Lebanese independence in 1946, and to its readiness in the eighties to 
engage in activities destabilizing to Jordan.
    Syria respects Israel's military might and has chosen not to join 
battle with Israel since 1973. Historians one day may find evidence 
that in his collaboration with President Anwar Sadat in their surprise 
attack on Israel in 1973, President Hafez Al-Asad shared the same 
assumption as the Egyptian leader: the war aimed at a political, not a 
military, ``victory''; something had to be done to bring the Arab-
Israeli stalemate to world attention; and the United States needed a 
push to restart negotiations for its resolution. This worked out well 
for Egypt, which achieved a full return of its territory. But Israel 
showed no interest in continuing to negotiate with Syria after its 
first disengagement agreement in 1974. Israel preferred, as Abba Eban 
once said, to focus on making peace with Egypt, the country that could 
make war.
    Perhaps because it has throughout history experienced foreign 
meddling in its neighborhood, Damascus has tended to see the 
establishment of Israel as just another move by the West to establish a 
bridgehead to divide and weaken the Arabs. Damascus has never 
understood the passion behind the logic of Zionism. Syrians from all 
walks of life have long enjoyed repeating the myth that over the front 
entrance of the Knesset in Jerusalem is the inscription ``From the Nile 
to the Euphrates,'' signifying Zionism's expansionist aims. Throughout 
the eighties Hafez Al-Asad said he saw no differences between Israeli 
political leaders who in his opinion were all committed to expanding 
Israel's territorial limits, a goal which he was determined to do 
everything in his power to prevent.
    While asserting that Arab Unity must be the primary goal of all 
Arabs, Damascus keeps a close eye on Syria's national interests. When 
Hafez Al-Asad, Syria's President from 1970 to 2000, disagreed with 
Palestinian leader Yasser Arafat in the seventies, he did not hesitate, 
despite wide Arab World support for Arafat, to set up a rival 
Palestinian civil and military leadership. Similarly in 1975 Al-Asad 
came to the help of Lebanon's Maronite President when he was asked to 
send troops to fight the Palestinians. In 1983 Syrian artillery fired 
on Arafat's forces in Tripoli, Lebanon.
    On another front, Al-Asad found it expedient to cooperate with 
Shiite Iran beginning in 1982, in supporting the creation and 
subsequent training and funding of the Shiite Hizballah militia in 
Lebanon. That was the same year in which he brutally suppressed a 
religiously based Syrian organization, the Sunni Muslim Brotherhood. 
Some have explained his readiness to work with Iran as reflecting his 
uneasiness at being a member of Syria's minority Alawite community, 
long treated as second class by the majority Sunni population. It is 
just as likely that he was comfortable working with any force, whether 
secular or religious, which bolstered Syria's leadership at home and in 
the region.

           IV. IMPACT OF THE U.S. OCCUPATION OF IRAQ ON SYRIA

    The removal of Saddam's regime is a political gain for Syria. 
Forgotten amid the welter of accusations leveled against Damascus today 
is the fact that for 30 years Al-Asad and Saddam were political rivals 
and occasional enemies.
    But the elimination of Sadam's regime proved costly. The war 
brought an immediate shutdown of the oil pipeline between the two 
countries. Syria had been profiting by as much as $1 billion a year 
through importing heavily discounted Iraqi oil for its domestic 
consumption and exporting its own production at world prices. This 
revenue source is unlikely to resume.
    There are no reliable Iraqi-Syria trade statistics, but over the 
past five years Iraq became an increasingly important market for Syrian 
exporters. Baghdad presumably wanted to reward the Syrian government 
for its cooperation on arms supply, and favored Syrian merchants for 
contracts under the UN ``Oil for Food'' program.
    One irony of the post-war situation is that while the United States 
Congress has been debating the Syrian Accountability Act, which 
includes the option of applying rigorous economic sanctions, the U.S. 
military in Iraq has encouraged Syrian exports to Iraq. It has 
authorized, for example, purchases of Syrian propane gas for Iraqi 
households, and allowed power swaps between northern Syria and the city 
of Mosul. In a demonstration of Syrian entrepreneurial skills, the 
volume of trade in ``white'' consumer goods between Syrian factories 
and its trading companies and the Iraqi market, has steadily increased. 
American investment, outside of three companies operating in the energy 
sector, remains minimal. The two way trade between the United States 
and Syria is just over the $300 million level.
    Syria has not made it easy for foreign investors and it has failed 
to unleash the energies and talents of its own business community. In 
part this probably reflects the Ba'ath Party's doctrinal suspicion of 
businessmen in general and its view that all outsiders are out to 
exploit Syria and provide no benefit in return. Today the Syrian 
economy is sluggish. The decision of President Bashar Al-Asad in his 
first year in office to privatize the banking industry, a surprising 
challenge to longstanding Ba'ath party doctrine, has yet to have a 
practical result.

               V. PAST ACTIONS TO INFLUENCE SYRIAN POLICY

    Syria, in common with most countries, responds to both carrots and 
sticks. The close cooperation developed by Henry Kissinger with Al-Asad 
in 1974 produced the Golan disengagement. Syria has fully respected the 
terms of that agreement for 30 years: there has been no infiltration or 
other provocations launched against Israel from that sector.
    As for its responding to sticks, there is the memorable example set 
by Turkey in 1998. Long frustrated by Syria's harboring of PKK leader 
Abdullah Ocalan, Ankara thereupon demanded his expulsion and moved its 
army to the border. Damascus expelled Ocalan and he was finally seized 
by Turkish agents in Kenya.
    Israel's October 5 attack on a Syrian site was chosen to send a 
political message, not to kill Syrians. It is reasonable to assume, 
however, that if Israel traces any terrorist acts as having been 
directly ordered from Damascus by Palestinian groups located there, or 
if there is a major revival of Hizballah attacks across the Lebanese-
Israeli border, the Sharon government may decide to repeat its message 
against Syria on a broader scale. The consequences of that decision are 
unpredictable. It is probable that at some point the Syrian leadership 
will feel obliged to find a way to reply and risk a broader conflict in 
the region. That is, what Bashar Al-Asad will ``understand'' from the 
Israeli use of force, will be his need to respond in kind.

 VI. OPTIONS FOR U.S. POLICY. SANCTIONS? PEACE PROCESS? WMD FREE ZONE?

    The Syria Accountability Act contains a provision for broad 
economic sanctions on Syria. Given the limited U.S.-Syrian trade and 
investment, our leverage is small. Washington could urge Syria's 
neighbors to cut off their trading links with Syria, but they probably 
would be unwilling to do so. The United States should reflect on the 
wisdom of cutting trade in light of the harm done to the Iraqi 
population, but not its leadership, during the thirteen years of U.N. 
sanctions against that country.
    Does Syria feel enough pressure, or sense sufficient rewards ahead 
to comply with Washington's demands to expel known Palestinian 
extremist leaders, assure that Hizballah will continue to avoid 
provocative cross border actions, and to close its borders more 
effectively to jihadis seeking a holy war against American forces in 
Iraq?
    Syria may find it in its interests to do some of the above. Any 
public action taken by Damascus against Palestinians, however, carries 
some risk for Syria; it could negatively affect its 400,000 resident 
Palestinians. This could be a problem for Syria given the current 
stalemate in the peace process.
    Syria would unquestionably like to be part of a reinvigorated peace 
effort. It is as anxious today as ever that its interests not be 
overlooked and sees that best achieved through a revival of 
negotiations under the peace process. Unfortunately, there seems little 
early prospect of renewed U.S. activity in terms of Israeli-Palestinian 
talks and none affecting the Syrian-Israeli and Lebanese-Israeli 
tracks.
    There should be attention given to the question of whether it would 
serve America's regional interests to sponsor negotiations for a Middle 
East free of weapons of mass destruction (WMD). Current American policy 
is to treat each nation's WMD programs, Israel excepted, as a separate 
problem and to threaten, or persuade each country in turn, to stop such 
programs. Since Pakistan and India carried out their atomic tests in 
1998, the pace of proliferation has increased. We have fought a war 
with Iraq because of its programs. We view with alarm Iran's alleged 
efforts to develop nuclear weapons and Syria's pursuit of WMD. The 
rumored Saudi interest in acquiring nuclear technology from Pakistan is 
disquieting. This is not a country by country problem, but a larger 
challenge facing the United States and the entire region.
    The conventional wisdom in Washington seems to be that it would be 
bad policy, not to mention bad politics, to go beyond a rhetorical call 
for a Middle East free of WMD. The problems of verification in the 
region are described as virtually insuperable. Of at least equal 
importance, it is said that any such effort would bring Washington into 
an unproductive, head on confrontation with Israel.
    True, Israel has usually shied away from any discussion of its own 
WMD arsenal. Usually, that is, but not always. In 1995 Israeli Foreign 
Minister Peres stated Israel's readiness to sign the NPT two years 
after a regional peace agreement. The nuclear issue was raised but 
quickly cut off in a Knesset debate in 2000. However, on October 12, 
2003, the Los Angeles Times published an extraordinary story by its 
reporter Douglas Frantz in which he described leaks by senior Israeli 
and American officials about outfitting Israeli submarines with nuclear 
tipped missiles. This was described as a signal to Iran of Israeli 
determination not to allow an Iranian nuclear weapons program to 
proceed.
    This indication of a new willingness by Israeli sources not only to 
acknowledge their country's possession of a nuclear arsenal but to 
describe its potential use raises the question of whether Israel would 
balk at an American initiative to engage it in negotiations for a 
region free of WMD. Even though Frantz's Israeli sources claimed 
anonymity, and the leaks he reported were therefore officially 
deniable, the story is a hint that Israel may be rethinking how to use 
its possession of WMD as deterrence. Clearly verification procedures of 
a WMD free zone would have to meet the most demanding standards. 
Guarantees of Israeli security through peace agreements, together with 
bilateral US commitments, would be required. But any approach which 
might restrain the rush to acquire nuclear, chemical and biological 
warfare capabilities in the volatile Middle East should be explored. It 
would also help to rebuild American credentials as a dependable 
mediator in the Middle East if Washington were to lead regional 
negotiations on WMD.
    In sum, despite all of the historical baggage which burdens the 
U.S.-Syrian dialogue, there are a few steps we each can take to improve 
the relationship, to calm rising tensions and to avoid a broader war.

    The Chairman. Thank you very much, Ambassador Murphy.
    The chair would like to recognize now Dr. Murhaf Jouejati.

STATEMENT OF MURHAF JOUEJATI, PH.D., ADJUNCT PROFESSOR, GEORGE 
    WASHINGTON UNIVERSITY, AND ADJUNCT SCHOLAR, MIDDLE EAST 
                           INSTITUTE

    Dr. Jouejati.  Thank you, Mr. Chairman. Thank you very much 
for inviting me to be here today.
    What brings me here also is a love for my native Syria and 
my love for my being a U.S. citizen, of which I am very proud. 
This love for the two, though, is mixed with a lot of 
frustration, all the more so that I think the U.S. and Syria 
have really at the end of the day the same objectives, which is 
peace and stability in the Middle East.
    What I will do here, again since it is in my written 
testimony, I will just gloss over and in very general terms, in 
the hope that we can get to specifics in the question and 
answer session. Before I do, may I just correct just a few 
misconceptions that I have heard this morning.
    Certainly, with respect to the Syrian economy, Syria is 
gradually liberalizing its economy. Syria seeks membership in 
the WTO. Syria has several free trade agreements with numerous 
Arab countries and Syria is currently negotiating with the EU 
to become an associate partner in the year 2010.
    Yes, there are U.S.-Syrian tensions. Certainly there are 
U.S.-Syrian tensions, but I think these have first and foremost 
to do with the Arab-Israeli conflict and, as Senator Boxer said 
earlier, the truth will set you free. I think it has to do with 
U.S. support to Israel despite Israel's continued occupation of 
Arab territories and this despite the United Nations 
resolutions.
    We explored what is wrong with the Syrian approach. Let us, 
if I may, let us also explore what may be wrong with the U.S. 
approach towards Syria. When we in the United States use the 
old stick approach with Syria, the best we can get is 
halfhearted cooperation. This is true in Lebanon and, although 
there has been to date four redeployments of Syrian troops, 
although Syria has kept the peace in Lebanon for quite a long 
time, although Syria has put the lid on Palestinian fighters in 
Palestinian refugee camps and also curtailed Hizballah 
activities in the south of Lebanon, Syria needs to withdraw 
from Lebanon. So it is a halfhearted cooperation.
    In Iraq there is Syrian cooperation with the United States 
and this General Petraeus can talk more about it than I. Syria 
is, for example, supplying electricity to the north of Iraq, 
specifically Mosul. We can talk also to Sir Jeremy Greenstock, 
who is the top British official in the U.S. occupation 
authority in Iraq, who has very recently said that he was 
astounded by Syrian cooperation. But there too we have a 
problem with Syria. Yes, Syria did--or at least there was 
smuggling across the border of night vision equipment, and so 
on.
    With terrorism we have a major problem. Part of the problem 
is that Syria and the Arab world and the third world at large 
simply do not see it the way we see it, this question of 
Palestinian, quote unquote, ``terrorism'' when the Palestinians 
are defending their legitimate rights to determine their 
future.
    But on the question of terrorism--here the distinction 
becomes very clear--Syria has been probably one of the closest 
partners with the United States in the war against al-Qaeda, so 
much so that senior American officials, including this morning, 
have said that Syria has saved American lives.
    By using the stick, Mr. Chairman, we are unwittingly 
delaying the reforms in Syria that we are hoping for. We are 
unwittingly uniting the new guard and the old guard, and there 
is, there is that division in Syria between new guard and old 
guard, and as we are applying the stick to Syria this can only 
bring them together in fear. We are uniting the state and 
society, whereas there was a gap between state and society, and 
society now increasingly is increasingly vocal in demanding 
change in Syria.
    By applying pressure to Syria, which is seen on the Syrian 
street as doing Israel's bidding, it is only delaying that 
movement of democratization. The case in point of the U.S. 
stick delaying reforms in Syria is the very recent cabinet 
reshuffle in Syria, in which President Asad wanted to make 
major changes, including the appointment of a non-Ba'athi prime 
minister, a man who is the president of the Damascus chamber of 
commerce. According to my information, President Asad wanted to 
overhaul the whole foreign policy apparatus. But this had not 
been done at the end of the day and he appointed again an old 
guardist in order not to seem or to give the appearance that he 
is bowing to American pressure.
    Furthermore, using the stick against Syria is going to 
further aggravate Arab public opinion, which is already very 
inflamed at our unconditional support to Israel and our 
occupation of Iraq. It is going to give, this stick against 
Syria, to give further munition to Islamic fundamentalists. 
Again, the Syria Accountability Act is going to be seen as the 
U.S. doing Israel's war against Arabs and Moslems.
    Finally, that stick against Syria and that anti-Syrian 
rhetoric that is coming out of Washington is going to--and I 
hope not, but--to bring the Middle East to the precipice. The 
case in point is that this has encouraged Israel to strike deep 
inside Syria, as it had on October 5th. And although Syria was 
restrained, the Israelis have threatened more strikes, at which 
point I think Bashar Asad would be under tremendous pressure to 
reply in kind, and this will set off a spiral of violence that 
we will not be able to control.
    Mr. Chairman, if we want Syria's total cooperation we can 
get it. All we need to do is to convince Syria that its 
security interests are not threatened, this not only with word 
but by deeds. This entails the resumption of the Middle East 
peace process based on Resolution 242, based on the Saudi plan, 
which all the Arab states have accepted and which the U.S. has 
endorsed.
    Then when the U.S. uses the stick with the recalcitrants, 
either Arab or Israeli, then we might move the region toward 
peace. Then there will be no more terror. Then we will be doing 
Israel a favor as its security policy has failed. Then we will 
do Syria and the Arabs a favor and, most of all, Mr. Chairman, 
we will be doing ourselves a favor.
    Thank you.

    [The prepared statement of Dr. Jouejati follows:]

               Prepared Statement of Dr. Murhaf Jouejati

    Summary: The recent tension in the U.S.-Syrian relationship must be 
viewed in the context of Syria's opposition to the U.S. war against 
Iraq. Syria's anti-war stance stems not out of love for the Saddam 
regime but because Damascus opposes unilateral action in general and 
fears encirclement by American power in particular.
    To be sure, Washington's displeasure is not confined to Syria's 
anti-war stance. It has to do with broader concerns regarding Syria's 
external action, including alleged Syrian support of terrorism, efforts 
to develop weapons of mass destruction, and the destabilization of its 
neighbors.
    The aim of this essay is to show that these concerns are inaccurate 
and that the persistence of Washington's aggressive approach toward 
Syria may impede rather than advance the U.S. national interest.

Syria and Terrorism
    With regard to the claim that Syria harbors terrorist 
organizations, Syria indeed hosts a number of militant Palestinian 
organizations that Washington considers ``terrorist'' but that Syria, 
together with other Arab and developing countries, regards as ``freedom 
fighters.'' Therein lies the greatest irritant in U.S.-Syrian 
relations. Syria provides these groups safe haven because it believes 
in their legitimate right to resist Israel's illegal occupation of 
their land.
    While there is no evidence to support the claim that Syria provides 
material or financial assistance to these groups, the hypothesis 
according to which Syria allows them to engage in business and other 
money-making activities to finance and sustain their operations is 
plausible.
    But this state of affairs seems to have changed following the 
meeting a few months ago between Secretary of State Colin Powell and 
Syrian President Bashar Asad in Damascus. Many reports indicate that 
Syrian authorities satisfied Washington's demand of shutting down 
Palestinian operations in Syria. More precisely, leaders of the Syria-
based militant Palestinian groups moved out of Syria (into neighboring 
Lebanon) voluntarily in order to alleviate the anti-Syrian pressures 
emanating from Washington. Whether the closure of their offices is 
temporary or permanent is not altogether clear. What is clear however, 
is that whether militant Palestinian groups maintain offices in 
Damascus or not neither bolsters nor diminishes their ability to resist 
Israel's military occupation of their land.
    At any rate, Syria has consistently prohibited militant Palestinian 
groups the use of its territory to launch military attacks against 
Israel, and this since 1970. This policy is part and parcel of Syria's 
broader policy of scrupulously adhering to the terms of the 
disengagement and cease-fire agreements with Israel that former U.S. 
Secretary of State Henry Kissinger brokered in 1974. Other than 
militant Palestinian groups, Syria does not permit any politically-
motivated organization to operate on its soil.
    With regard to Hizballah, Syria maintains relations with that group 
from a distance. There are no known Hizballah offices, training camps, 
or military bases in Syria. Hizballah operates from bases in the south 
of Lebanon. However, although Syrian officials deny providing Hizballah 
other than moral support, evidence suggests that Syria has served on 
occasion as a conduit for Hizballah-bound arms and equipment supplied 
by Iran.
    Having said that, while Syria has some influence over Hizballah 
(Damascus can cut-off the supply route at will), the degree of that 
influence is exaggerated. Hizballah enjoys a fairly high degree of 
autonomy. At any rate, Iranian influence over Hizballah seems to be 
greater than that of Syria.
    In sum, although Syria harbors groups that Washington considers 
``terrorist,'' Syrian support is largely of a symbolic nature. To 
assert, therefore, that Syria supports terrorism is highly inaccurate, 
especially that, since 9/11 to date, Syria has been one of Washington's 
closest partners in the war against international terrorism:

  <bullet> Syria has been ``completely cooperative'' in investigating 
        al-Qaeda and persons associated with that organization, 
        according to a senior CIA official. That cooperation was 
        highlighted by the revelation last year that Syria ``saved 
        American lives,'' according to Richard W. Erdman, the chief 
        State Department specialist for Syria. Indeed, Syrian security 
        services tipped off the CIA of an impending al-Qaeda attack 
        against the administrative unit of the fifth fleet headquarters 
        in Bahrain. If successful, that operation would have killed a 
        large number of American troops.

  <bullet> Syrian intelligence tipped off Canadian and U.S. authorities 
        of a planned al-Qaeda attack against a U.S. target in Canada.

  <bullet> Syrian cooperation was also highlighted by an earlier 
        revelation that a key figure in the September 11 plot, Mohammad 
        Haydar Zammar, had been arrested in Morocco and sent to Syria 
        for interrogation, with American knowledge. Although U.S. 
        officials have not interrogated Zammar directly, Americans have 
        submitted questions to the Syrians who have in turn relayed 
        Zammar's responses to the CIA.

  <bullet> Damascus provided information on September 11 hijacker 
        Mohammed Atta, an Egyptian citizen who worked on an engineering 
        project in the northern Syrian city of Aleppo in the mid-1990s. 
        Damascus also supplied information on Ma'mun Darkazanli, a 
        Syrian businessman who allegedly served as a financial conduit 
        to al-Qaeda members and prayed in the same mosque in Hamburg, 
        Germany, as did Atta and Marwan al-Shehhi, who piloted the 
        hijacked planes that blew up the World Trade Center. Darkazanli 
        also allegedly managed the bank accounts of Mamdouh Salim, a 
        top al-Qaeda member awaiting trial in the U.S. on charges of 
        participating in the 1998 bombings of two U.S. embassies in 
        Africa.

  <bullet> Syrian officials have avoided arresting certain suspects so 
        they can continue to monitor their conversations and movements 
        and report back to the United States.

    Syria's war against al-Qaeda underscores the distinction Damascus 
makes between terrorist groups and national resistance movements. An 
impartial verdict as to whether is Syria is a state sponsor of 
terrorism must await an international consensus over this definitional 
problem.

Syria and WMD
    With regard to the claim that Syria is developing weapons of mass 
destruction, that program dates back to the 1980s as part of the late 
Hafez Asad's policy of reaching strategic parity with Israel, a state 
whose nuclear stockpile includes over three hundred nuclear warheads. 
From his perspective, maintaining a balance of power with Israel in 
that field, no matter how lopsided, is the best guarantee to maintain 
quiet along the Golan front.
    Having said that, Syria's arsenal of chemical and biological 
weapons is said to be too insignificant to pose a threat to U.S. 
interests in the region. According to the internationally renown 
military analyst Anthony Cordesman, Syria's WMD program is ``silly.''
    At any rate, Washington must support Syria's recent proposal to the 
United Nations to ban non-conventional weapons throughout the Middle 
East, not oppose it as it has in recent times.
Syria: a Destabilizing Factor?
    With regard to the claim that Syria is a ``destabilizing'' factor 
in the Middle East, the evidence suggests the opposite:

  <bullet> As mentioned above, Syria has scrupulously adhered to the 
        1974 cease-fire agreement with Israel along the Israel-occupied 
        Golan front;

  <bullet> Syria's military presence in Lebanon helped end the Lebanese 
        civil war. Syria restored peace in that country by disarming 
        all local militias (except Hizballah). Although, as mentioned 
        above, Syria has limited influence over Hizballah, Syria's 
        military presence in Lebanon helps curtail the activities of 
        that group in the south of Lebanon. It also keeps the lid on 
        armed elements in Palestinian refugee camps in that country.
      At any rate, given the overall improvement in the security 
        situation in Lebanon over the past few years and the expansion 
        in the size of Lebanon's armed forces, Syria, in keeping with 
        the Tai'f accords and in coordination with Lebanese 
        authorities, has, to date carried out four redeployments.

  <bullet> With regard to the infiltration of jihadists into Iraq, a 
        top British official said recently that Syria and Iran, accused 
        by some U.S. officials of subverting efforts to stabilize and 
        rebuild Iraq, had in fact been cooperative. Sir Jeremy 
        Greenstock, the most senior British official in the U.S.-led 
        occupying administration, said a dialogue was under way with 
        Damascus and Tehran to encourage them to back more openly the 
        postwar drive to create a new Iraq. ``I think on the whole that 
        they have been quite cooperative,'' said Greenstock, Britain's 
        former ambassador to the United Nations, when asked if Syria 
        and Iran were actively trying to destabilize Iraq.
      In the same vein, Gen. David Petraeus, Commander of the 101st 
        Airborne division, acknowledged Syria's cooperation. Syria is 
        providing electricity to northern Iraq, especially the city of 
        Mosul, from its own electricity grid. Gen. Petraeus also lauded 
        Syrian efforts to curb the infiltration of jihadists into Iraq 
        despite Syria's limited resources. Although Syria can not 
        prevent all fighters from slipping across the long, porous 
        border with Iraq, Syria is doing everything it can. According 
        to Syria's Foreign Minister, ``We have tightened our 
        checkpoints and are turning people back. But the border is long 
        and we cannot cover it all.''

    In sum, the characterization of Syria as a ``destabilizing'' force 
in the Middle East does not fit the evidence.

The U.S. Approach
    In light of the above, the approach that Washington adopted vis-a-
vis Syria is the wrong approach, and this for several reasons. First, 
the U.S. is unwittingly undermining the reforms that were taking shape 
in Syria before the war on Iraq. Just as Bashar Asad's reformist team 
was beginning to gain ground in the new guard/old guard competition, 
U.S. pressure came to unite the two camps.
    The new cabinet that Asad put in place in mid-September is one case 
in point. Asad decreed the separation of the Ba'ath Party from the 
state and its day-to-day operations and was in the process of 
engineering the formation of a technocratic government. Asad planned to 
invite Rateb Shallah, the U.S.-educated president of the powerful 
Damascus Chamber of Commerce, to form a new government. The choice of 
Shallah made sense given the latter's important Washington connections 
and close ties to the international business community. Asad also 
wanted to overhaul the foreign policy apparatus by removing Farouk al-
Shara--Syria's staunchly anti-U.S. foreign minister--and replacing him 
with his deputy, Walid Mouallem, a professional diplomat who commands 
considerable respect in Washington. Asad also intended to remove the 
veteran Defense Minister Mustafa Tlas, and to replace him with Army 
Chief of Staff Lt. General Hassan Turkmani.
    Although the decision to make important personnel changes was meant 
to improve the standing of his regime in U.S. eyes, it was also meant 
to satisfy Syria's domestic needs: Asad had become increasingly 
frustrated with the slow pace of the economic and administrative 
reforms that he had promised upon assuming power three years ago. 
Although the outgoing government instituted several important measures, 
including the establishment of private banks and private universities, 
it had done little to arrest the declining quality of life of the 
average citizen.
    But against the background of Washington's saber rattling and 
unsubtle hints regarding de-Ba'athification, Asad, in a last-minute 
decision, scrapped his list of ministerial candidates and instead, 
called on an ``old-guardist,'' Naji al-Otari, the 59-year-old 
parliamentary speaker to head the new cabinet. Asad was concerned with 
appearing as bowing to U.S. pressures. This underscores what I have 
written elsewhere:

        If the U.S. continues to exert pressure against Syria, it risks 
        having Syria run in the other direction. A historical analysis 
        of Syria's behavior shows that external pressure against Syria 
        does not always work. When Syria feels the heat, it generally 
        runs in the other direction. The U.S.-Israel strategic alliance 
        in the early 1980s pushed Damascus into the Soviet embrace. The 
        Turkish-Israeli alliance of 1996 drew Syria closer to Iraq.

    Second, as a result of mounting U.S. pressure and anti-Syrian 
rhetoric, Washington unwittingly bridged the gap between the state and 
society in Syria. Given Syrian society's intense Arab nationalist 
sentiment, and given popular mistrust of U.S. intentions (in large part 
due to unconditional U.S. support of Israel), the state-society gap 
(which helped advance the cause of democratization by pushing the state 
towards reform) has narrowed, further weakening the emerging civil 
rights movement.
    Third, continued U.S. pressure against Syria threatens to further 
alienate the broader Arab public. Moreover, it plays into the hands of 
radical Islamic fundamentalists who can now point to the threat of U.S. 
sanctions against Syria as further evidence that the U.S. is carrying 
out Israel's war against Arabs and Muslims.
    Finally, by persisting in its pressure against Syria, the U.S. 
might precipitate unintended consequences. Washington's tough anti-
Syrian rhetoric has emboldened Israel, Syria's arch nemesis. Israel's 
October 5 air strike deep into Syrian territory would probably not have 
taken place had it not been for Israel's impression that it had 
Washington's ``green light.'' President Bush's tacit approval of that 
air strike may have made matters worse: Following his statement that 
Israel need not feel constrained in defending itself, Israel threatened 
Syria with further military action, in which case the Asad regime is 
likely to retaliate despite its inferior military position vis-a-vis 
Israel, a move that, in turn, might unleash Israel's vastly superior 
force against Syria and/or Lebanon.

Conclusion
    In sum, in its attempt to bring Syria to heel, the intense pressure 
that Washington is applying against Syria threatens Syrian cooperation 
against al-Qaeda and in Iraq. Another unintended consequence is that 
Washington might inadvertently thwart Bashar Asad's efforts to reform 
Syria, threatening in the process the small gains that the civil rights 
movement in Syria has made in the past three years. In addition, the 
U.S. risks further alienating the Arab and Islamic worlds, and, more 
importantly, might bring the Middle East to the precipice.
    A wiser course would be to emulate the British approach vis-a-vis 
Syria, one that engages Damascus through dialogue. Specifically, 
Washington must seize on the above mentioned instances of Syrian 
cooperation in Iraq by proposing, among other things, to carry out 
joint U.S.-Syrian patrols along the Syrian-Iraqi border.
    In the longer term, Washington will obtain total Syrian 
cooperation, not only in Iraq, but in the Middle East at large, if it 
engages in a balanced approach to peace-making in the Middle East. In 
this regard, Washington needs to show that it is determined to help 
solve the Arab-Israeli conflict, first, by including Syria and Lebanon 
in its current attempts to resolve the Palestinian-Israeli dispute, and 
second, by demonstrating that Washington expects the parties to the 
conflict, including Israel, to abide by the terms of UN Security 
Council land-for-peace Resolutions. According to senior Syrian 
officials, if Israel were made to implement its share of the land-for-
peace equation, namely the withdrawal of Israeli forces from the 
territories it occupied in June 1967, Syria would, in addition to 
normalizing diplomatic and other relations with the Jewish state, 
disband all anti-Israel groups. In the final analysis, is it not these 
twin objectives--peace in the Middle East and the end of terrorism that 
the U.S. is aiming for?

    The Chairman. Well, thank you very much, Dr. Jouejati.
    Mr. Leverett.

 STATEMENT OF FLYNT L. LEVERETT, PH.D., VISITING FELLOW, SABAN 
     CENTER FOR MIDDLE EAST STUDIES, BROOKINGS INSTITUTION

    Dr. Leverett.  Mr. Chairman, like the other members of the 
panel, I have submitted my full statement for the record. I 
will just touch on a few points here.
    I would submit that today the United States does not really 
have a policy toward Syria if by policy we mean a series of 
measures and initiatives rooted in a strategy for changing 
Syrian behaviors that are inimical to our interests and 
eliciting more constructive behavior from the Syrian regime.
    Let me very briefly put a little bit of historical 
perspective on that. During the 90's, from the Madrid 
Conference in 1991 until the summit between President Clinton 
and the late Hafez Al-Asad in March 2000, the way that we 
thought about a strategy toward Syria was in the context of the 
Syrian track of the Middle East peace process. It was assumed 
that once we got Syria and Israel to do the deal that all of 
our bilateral concerns with Syria, particularly those related 
to its state sponsorship of terrorism, would be taken care of 
in the context of that agreement.
    But of course, that agreement never came, and with the 
effective collapse of the Syria track in 2000 we have been left 
adrift in our policy toward Syria without a strategy, without a 
sense of how to accomplish what it is we want to accomplish 
with Syria.
    I would suggest that--and I would respectfully disagree 
with Ambassador Murphy and Dr. Jouejati on this--that it is a 
mistake to make the basis for a new strategy toward Syria a 
resumption of the Syrian track of the Middle East peace 
process. As important as I think that a peace between Syria and 
Israel would be for the region and for U.S. interests in the 
region, the reality is that we are not going to have a 
meaningful Syria track any time soon. Given what else is going 
on in the region, given the composition and the positions of 
the present Israeli government, we are not soon going to be 
able to restart the Syria track on terms that would to have any 
meaning for the Syrian regime.
    I think what we need is a strategy that will let us 
accomplish our policy goals toward Syria without waiting for a 
climate that is more conducive to a resumption of the Syria 
track.
    I would pick up on something that Patrick Clawson said. We 
need both bigger sticks and bigger carrots with regard to Syria 
if we are going to construct such a strategy. There has been a 
lot of discussion of sticks with regard to Syria. The Syria 
Accountability Act is very much oriented in that direction. I 
do not hear very much discussion nowadays about carrots for 
Syria and I think that is a serious deficiency in the policy 
debate right now.
    If we are not willing to talk with specificity about the 
carrots as well as the sticks, we are never really going to be 
able to modify Syrian behavior. Both when I was in government 
and even more since I have left government and in some ways am 
able to speak more freely with Syrians and others in the 
region, the consistent message that I hear from Syria with 
regard to our policy differences with the regime in Damascus 
is: You keep telling us you want us to change our behavior, but 
you will not tell us what is in it for us if we do.
    I think we should make it clear both what is in it for 
Syria if it behaves more constructively and what will happen to 
them if they do not behave more constructively. Let me suggest 
a couple of areas and how this approach might work in those 
areas.
    With regard to terrorism and Syria's designation as a state 
sponsor of terrorism, that designation is eminently justified 
by the record of Syrian behavior. But all we do, frankly, in 
terms of engaging Syria on this is to reiterate over and over 
the same list of complaints and tell them we want them to stop.
    I think we need to create--to use a word that has been 
taken over for other purposes, but I will use it here--we need 
a road map for Syria on the terrorism issue. We should be very 
clear that we want them to do specific steps--expel these 
leaders, close these offices, stop these activities--but also 
indicate that if they were to do those things in a way that was 
verifiable and we were confident they had done them, that we 
would be prepared to take Syria off the state sponsors list 
because at that point Syria would effectively be out of the 
terrorism business as far as the United States was concerned. 
We need to use both carrots and sticks.
    Similarly, on getting them to take a more cooperative 
stance toward what we are doing in Iraq, I could not agree more 
with Senator Biden's suggestion that what we need is an 
analogue to the six plus two framework that was, I think, very, 
very helpful to us in late 2001, early 2002, in dealing with 
Afghanistan. We need an analogue for that with regard to Iraq.
    I think that would be good for our own interests in Iraq, 
but in the context of today's topic I think it would be an 
important way of reassuring the Syrians that what we are doing 
in Iraq is not directed against their interests and that in 
fact their regional interests could be accommodated in what we 
are trying to do in Iraq. Again, we need both carrots and 
sticks.
    With regard to the Syria Accountability Act, I certainly 
welcome and encourage the efforts to put a national security 
waiver in. I think if people are looking for other ways to 
increase the range of flexibility that is granted to the 
executive in implementing the act, assuming that it passes, I 
would also consider putting in sunset provisions with the 
various measures, put in a time limit, so that at the end of 
the time limit the executive and the Congress are going to have 
to revisit the situation and see if these kinds of measures are 
still appropriate.
    Will such an approach, the kind of approach I have 
suggested, really work with the Syrians, particularly given 
some of the things that we have heard about Bashar Al-Asad 
today? I think that there are a number of competing images of 
Bashar Al-Asad in public discourse about Syria today. You heard 
one from Patrick Clawson: Bashar is essentially the loyal son 
of the regime, may in fact be even more ideological, more anti-
American in his orientation than his late father.
    You have heard another from Mr. Jouejati, that Bashar is 
someone who really does want to take Syria in a more 
constructive direction, but is hemmed in by an old guard. 
Particularly in Israeli analytic circles, you hear a third 
view: Bashar is simply inexperienced, not up to the job, does 
not really know what he is doing.
    I could argue the case for any one of those there views of 
Bashar with a sort of selective application of evidence. I 
think that what this suggests is that Bashar's situation is 
very, very complicated and that if we are going to engage him, 
if we are going to get anything more than tactical adjustments 
in Syrian behavior, we are going to have to be very clear, very 
explicit, about what we want him to do, but also very clear 
about both rewards and benefits, depending on the choices that 
he makes.
    Thank you very much.

    [The prepared statement of Dr. Leverett follows:]

                Prepared Statement of Dr. Flynt Leverett

    Mr. Chairman, Senator Biden, members of the committee, thank you 
for the opportunity to speak with you about an important and timely 
issue in U.S. Middle East policy: how to deal with Syria. I have been 
involved with U.S. policymaking toward Syria for almost a decade--as a 
senior analyst at the Central Intelligence Agency, on the State 
Department's Policy Planning Staff, as a Senior Director for Middle 
East Affairs at the National Security Council, and, now, as an analyst 
and commentator in the think-tank world. I hope that, on the basis of 
this experience, I might offer the Committee some perspective on 
current difficulties in U.S.-Syrian relations.
    The source of these difficulties, I believe, is a serious policy 
vacuum toward Syria. Because of this vacuum, we have no way to resolve 
our outstanding differences with Syria, such as its longstanding 
support for Palestinian terrorist organizations and Lebanese Hizballah, 
its pursuit of weapons of mass destruction, its hegemonic position in 
Lebanon, and more recently, its efforts to undermine U.S. policy goals 
in Iraq.
    Let me put this argument in historical perspective. For almost a 
decade, from the Madrid conference in 1991 until 2000, successive 
Republican and Democratic administrations thought about engaging Syria 
primarily in the context of the Syrian track of the Arab-Israeli peace 
process. In this approach, our outstanding bilateral differences were 
to be resolved as part of a peace settlement between Israel and Syria. 
For example, it was generally understood that, as part of such a 
settlement, Syria would have no need for and would sever its ties to 
Palestinian rejectionists and disarm Hizballah fighters in southern 
Lebanon. Similarly, Syria's pursuit of WMD would be put into a less 
threatening and ultimately more soluble context.
    Of course, the peace treaty between Israel and Syria that U.S. 
mediators worked so hard to facilitate never came. Moreover, in a six-
month period in 2000, the underpinnings of the U.S. approach to the 
Syrian track and the management of the U.S.-Syrian relationship 
disappeared.

  <bullet> In March of that year, the failure of the Clinton-Asad 
        summit in Geneva marked the collapse of the Syrian track.

  <bullet> Two months later, in May, the IDF withdrew from southern 
        Lebanon.

  <bullet> A month after that, Syrian President Hafez al Asad died and 
        was succeeded by his son, Bashar.

  <bullet> In September, the intifada al Aqsa began.

    As a result of these events, the Bush administration came to office 
with no inherited operational framework for policy toward Syria. A year 
later, in the aftermath of the September 11, 2001 terrorist attacks, 
President Bush launched our war on terror. Syria, under Dr. Bashar's 
leadership, offered the United States intelligence cooperation against 
Al Qaida and related groups, but did nothing to reverse its own 
terrorist ties. In the context of a global war on terror, Syria's 
status as a state sponsor of terrorism pursuing WMD capabilities has 
become a source of increasing friction between Washington and Damascus. 
Moreover, in light of the ongoing U.S. involvement in Iraq and mounting 
tensions between Israel and Syria, it seems clear that strained 
relations with Damascus complicate the pursuit of broader U.S. 
interests in the region.
    Unfortunately, the Bush administration has had little success to 
date in getting Syria to modify its problematic behaviors or in 
cultivating a more constructive relationship with the Asad regime, 
despite letters and phone calls to Dr. Bashar from President Bush, 
personal meetings with Secretary Powell, and visits by other senior 
officials such as Ambassador Burns. The lack of results stems, in my 
view, from the policy vacuum I just described. Three years into its 
tenure, the Bush administration has failed to develop a genuine 
strategy for changing problematic Syrian behaviors and resolving the 
outstanding bilateral differences between Washington and Damascus. The 
United States still lacks a framework for constructively engaging Syria 
apart from the Syrian track of the peace process.
    What should such a strategy look like? As I have noted in other 
settings since leaving government, a strategy for modifying the 
behavior of rogue regimes has to be rooted in hard-nosed, carrots-and-
sticks engagement. We have to contrast the benefits of cooperation with 
the likely costs of noncooperation--in other words, to tell rogue 
leaders what's in it for them if they change their behavior, and make 
sure they understand what will happen to them if the don't.
    Would such a strategy work with regard to Syria, as it has worked 
to move Sudan in a positive direction on terrorism and to induce Libya 
to meet its international obligations in the PanAm 103 case? Or, is 
Syria more analogous to Afghanistan under the Taliban or Saddam 
Hussein's Iraq--an irredeemable regime, incapable of modifying its 
behavior, regardless of the incentives and disincentives put in front 
of it? The answers to these questions lie in an assessment of Dr. 
Bashar as national leader.
    Currently, three alternative ``images'' of Bashar dominate 
discussion and debate about Syria in the region, in Europe, and here in 
the United States.

  <bullet> Some believe that he is a closet reformer, hemmed in by an 
        ``old guard'' he inherited, along with his position, from his 
        father. He is not an incorrigible thug like Saddam Hussein or a 
        religious ideologue like Mullah Omar.

  <bullet> Others see Bashar as a loyal son of both father and regime, 
        seeking to protect Syria's Ba'athist order; some analysts in 
        this camp suggest that Bashar may in fact be more ideological 
        in his approach to foreign policy than his father, perhaps 
        under the influence of Hizballah's Sheikh Hassan Nasrollah.

  <bullet> A third school sees Bashar as inexperienced, unable to play 
        the game of regional maneuvering with anything like his late 
        father's acumen.

    In reality, all three assessments contain elements of truth.

  <bullet> Bashar has demonstrated some reformist impulses. He is not 
        an ideological fanatic like Mullah Muhammad Omar or an 
        incorrigible thug like Saddam Hussein. He is young, educated 
        partly in the West, and married to a British-born woman who was 
        once in J.P. Morgan's executive training program and passed up 
        admission to Harvard's MBA program to marry him. Bashar has 
        made it clear that Syria needs to modernize, and that its long-
        term interests would be served by better relations with the 
        United States, but has been constrained by his father's still-
        powerful retainers.

  <bullet> Bashar can indeed fall into the most strident sort of 
        Ba'athist, anti-American rhetoric, and he has not demonstrated 
        much flexibility on foreign policy, where he appears to be 
        trying to follow the strategic ``script'' he received from his 
        father. This script acknowledges the desirability of a better 
        relationship with the United States but makes a strategic 
        breakthrough dependent on meeting conditions rooted in the 
        tensions of Syrian domestic politics.

  <bullet> Bashar is obviously less experienced than his father, and 
        certainly makes more than his share of mistakes.

    What all of this suggests is that Bashar could be a suitable 
subject for diplomatic engagement, but only if engagement provides him 
with a clear roadmap to the desired goal and empowers him to move in 
that direction. It is not enough to complain about problematic Syrian 
behaviors: we have been doing that for 24 years, since we first 
sanctioned Syria as a state sponsor of terror. Instead, we must give 
Bashar explicit and specific targets for reversing problematic 
behaviors. And engagement must be backed by a set of policy tools that 
would impose significant costs for continued non-compliance with U.S. 
requirements but also promise significant benefits in the event of 
cooperation--in other words, carrots and sticks.
    There is a lot of discussion in Washington right now about new 
sticks in our Syria policy. But I don't hear much discussion about 
carrots; indeed, the Bush Administration resists intensely any such 
discussion. But this leaves us with a dysfunctional policy. We must be 
prepared contrast the prospective costs of non-cooperation, such as 
economic sanctions, with the prospective gains from cooperation. 
Prospective gains could include:

  <bullet> Syria's removal from the list of state sponsors of 
        terrorism, provided it expels terrorists from its territory, 
        renews counterterrorist cooperation with the United States 
        against Al Qaida, and broadens that cooperation to include 
        Syria's own terrorist links. In the 1990s, we made Syria's 
        removal from the list contingent on a peace treaty with Israel 
        that never came; we should now tie removal to changes in 
        Syria's relations with terrorists. Taking Syria off the list 
        would allow American economic aid to flow to the country for 
        the first time in decades and substantially increase assistance 
        from international financial institutions.

  <bullet> Accommodation of Syrian interests in Iraq, if Damascus 
        helped tackle the security problems there. This could include 
        facilitation of Syrian-Iraqi trade and Syrian participation in 
        Iraqi reconstruction, but should also allow for a strategic 
        dialogue between Washington and Damascus on Syria's regional 
        interests. The Syrian regime has had a chronic fear of regional 
        marginalization. Following the 1991 Persian Gulf War, Syria's 
        principal forum for having its regional interests considered by 
        the United States was the Syrian track. We should now indicate 
        a willingness to begin talking with Bashar about Syria's 
        regional interests, but only on condition that he take steps to 
        cut his country's links to terrorists and begin cooperating 
        with U.S. goals in Iraq.

    We should also make an exception to allow Middle East Partnership 
Initiative (MEPI) funding to go to NGOs in Syria. Right now, our policy 
does not even allow U.S. Government funds to go to civil society 
activists or micro-entrepreneurs in Syria because of the prohibition on 
any U.S. Government money going to a state sponsor of terrorism. This 
prevents us from engaging and empowering reformists in Syria who could 
support a Bashar willing to take the tough decisions we require.
    A smartly constructed package of carrots and sticks would empower 
Asad to show the regime's inner circle and his public that Syria 
interests would be better served by cooperation with the United States 
than by continued resistance. This is the key, in my view, to a more 
constructive U.S. relationship with Syria. Thank you for your 
attention.

    The Chairman. Thank you very much, Mr. Leverett.
    We will have questions now of the panel, and Senator Biden 
and I will go back and forth. I would suggest that we try maybe 
8 minutes and we will alternate.
    Mr. Leverett, let me proceed with your thoughts. I was 
following intently your line of thought on offering carrots. 
Someone else said earlier in some part of our dialogue that we 
should have larger carrots, larger sticks. Try to further 
sharpen, if you can, the choice of carrots. In other words, I 
am not certain I have a clear perception of what it is that we 
ought to be doing that is more attractive.
    For example, the second carrot idea on Iraq: Maybe many 
other countries are confused about our policy in Iraq, although 
as Americans we do not see much confusion. We are struggling 
mightily with our coalition partners to try to bring about a 
regime of human rights, of democracy, of some economic freedom 
for the people of the country, of a new idea, which some 
countries in the region might find dangerous, ideas that could 
spread and that could lead to instability.
    Now, it would appear that we are being opposed from day to 
day by people who may be a part of the previous regime of 
Saddam, maybe persons coming in from other countries who want 
to join the war against terror on the side of whoever is trying 
to disrupt this. The killings of the UN people, the Red Cross 
people, of innocent Iraqis, quite apart from targets of 
American soldiers, are extremely violent and fairly consistent.
    So when we approach Syria and say, we think you ought to be 
on our side on this, and there is ambivalence, to say the 
least, from the Syrians this is confusing for us, however 
confusing it may be for the Syrians. So try on for size again 
the Iraq situation. How do we have a carrot there that is 
meaningful?
    Dr. Leverett.  I think, to put it in context from a Syrian 
perspective, one of the chronic concerns of the Syrian regime--
this certainly goes back to the time of Hafez Al-Asad, but I 
think it very much continues in the way that Bashar and the 
people around him look at the regional situation--the biggest 
fear from Damascus's standpoint is one of regional 
marginalization, that the United States is going to be able 
over time literally to encircle Syria with a series of pro-
western regimes.
    You have Israel and you have the whole history of efforts 
to broker a separate peace with Lebanon. You have Jordan now 
very firmly in the American camp; Saudi Arabia; go on around 
the region. And now you have Iraq flip over in a big way.
    The Chairman. What would be wrong with that? Why is that 
not in the best interests of the world, for that to happen?
    Dr. Leverett.  Because at that point, if the Syrian track 
of the peace process is still unresolved, there is, from a 
Syrian perspective, no particular reason why the United States 
or the rest of the world really has to pay attention to that 
issue. The United States would have the strategic position that 
it wanted, Syria is in no position on its own to threaten 
Israeli strategic interests in a fundamental way, and at that 
point Syria could be ignored. I think that is the biggest fear 
that a Syrian leader has.
    What something like a six plus two framework for Iraq could 
do in helping us manage the Syrian relationship is assuage that 
concern and help the Syrian leadership to understand that we in 
fact do want to accommodate their legitimate regional interests 
as part of what we are trying to do in the region.
    The Chairman. Well, let us say that we did try to 
understand their legitimate interests, which might be 
settlement of the Golan Heights dilemma, for example. Can you 
parse that type of activity as to simply street antipathy to 
Israel, in which finally you try to work out various things 
pragmatically? Syrian leadership may be influenced by the 
street or maybe the other way around--I do not know, maybe 
both--and just simply say: We do not like Israel; as a matter 
of fact, we just wish they were not there.
    Therefore we get back again and again to the question of, 
why are you in the United States interested in an Israel that 
is finally accepted by everybody and that lives in peace and 
negotiates, as opposed to taking a position of indifference, 
that Israelis just have to fend for themselves and the United 
States will not be involved?
    I mean, is there ever any way out of that kind of dilemma, 
perhaps simply by working through the other elements of the 
settlement of the Syrian situation?
    Dr. Leverett.  I believe that there is, Senator. I think 
that as a result of the work that was done during the 1990's on 
the Syria track that we understand very well what the 
requirements are for peace that would meet Syrian needs on 
return of territory, full withdrawal of Israel from the Golan, 
and Israel's needs for security guarantees and normal relations 
with Damascus afterwards. We know what that agreement would 
look like.
    We are just simply not in a position at this point to 
deliver on that or try to make it happen in a very feasible 
way. I think that the Syrians, without any great altruism 
toward Israel, have basically made the calculation that over 
the long run that is in their interest, that is the best deal 
that they can hope for strategically to help their place in the 
region, to help their position with us. I think if we get back 
into an environment in which the kind of deal I was talking 
about would be feasible, the Syrians would go for it.
    The Chairman. That point of view is an important one. It is 
held by a good number of people who have studied this area a 
long time, in the same way that some of the same people hold 
the view that we know what a Palestinian-Israeli settlement 
will look like. We have been down that trail many, many times 
before.
    So in other words, in our minds' eyes we have an idea of 
what the settlement is. But then you get back to the problem. 
Nevertheless, even though we have pronounced the Road Map 
strategy and even got steam rapidly generated behind that, we 
may not know how it all ought to come out or whether it is off 
track. We are back to a situation which all of you have 
described today, which, to say the least, is disheartening.
    Let me ask Dr. Clawson: in your analysis of the new 
leadership you were more oblique about that than perhaps your 
panel members, and maybe correctly so. But if this is a new 
regime, with a new president who has problems that are even 
greater, what might bring him back into this framework that we 
are talking about, in which we finally realize some objectives 
from the past, deal with the reality, and move on? Is that in 
the cards at all with this leadership?
    Dr. Clawson.  I would be very pessimistic about progress 
soon on a Syrian-Israeli peace because, as all of us has 
emphasized, Bashar has found it extremely difficult to break 
with the old guard of the past. And for him to accept a deal 
which his father refused would be dynamite in the Syrian 
political scene. Since the deal which in fact Bashar--excuse 
me--Hafez Asad refused when offered him by President Clinton in 
Geneva in the spring of the year 2000 was extraordinarily close 
to what it was the Syrians had long told us they would insist 
on, involving an extraordinarily extensive Israeli withdrawal, 
I think it would be very difficult, very difficult, for Bashar 
to make progress on this front.
    I am more optimistic on some of the other fronts. I think 
there is some real prospects that we could make progress on the 
Lebanon issue, on Hizballah, on Iraq, and I think that that 
could create an environment where down the road we could 
imagine getting back to the kind of Geneva deal, which is about 
the best that we are going to see for the Syrians.
    The Chairman. So you might make headway there? In other 
words, it is not just a question that the new leader has to be 
there for quite a long while before he consolidates his own 
authority, confidence, and what have you?
    Dr. Clawson.  That would help, but I also think he could 
consolidate his authority and confidence in his rule faster if 
he can show that he can deliver on some of these other issues 
and get some of the carrots that Flynt was mentioning. And I 
would quite agree with him.
    My great concern is at the moment Bashar does not believe 
that there are any sticks in the United States. He looks at 
what happened with the oil pipeline from Iraq, where we talked 
tough and we did not do a darn thing about it, and he directly 
liked to Colin Powell about it, and yet there were no 
consequences as far as he could see. He continued to get the 
revenue.
    So he does not believe that there are any sticks from us 
and he does not believe there are any carrots from us. So he 
does not see any reason to change his behavior.
    The Chairman. Thank you.
    Senator Biden.
    Senator Biden.  Dr. Jouejati, you and Professor Clawson 
come at this completely differently. You basically say that you 
have to get the Palestinian-Israeli track, the Israeli-Syrian 
track, settled before you are going to make any progress on 
these other things. And Dr. Clawson, unless I misunderstand 
him, says it is going to work the other way; you will be able 
to get some progress moving the other way before you get to the 
Golan.
    Could you, because you seem very certain of what you are 
saying, could you tell us what you think Syria believes it 
needs in order to, quote, ``do a deal''? What is it do you 
believe--how far would the Israelis have to go to get yes for 
an answer in terms of at least the Israeli-Syrian relationship?
    Dr. Jouejati.  Thank you, Senator Biden. Israel would have 
to not so much please the whims of Syria, but to abide by UN 
resolutions.
    Senator Biden.  Oh, I got that. Look, we have an old 
expression where I come from: Let us not kid a kidder. We all 
know what the UN resolutions are.
    I would like you to be as specific with me as you were on 
other parts of your views about Syria. What specifically is it? 
Is it--I mean, can you describe it, not in the context of UN 
resolutions, in the context of concrete action that you believe 
would have to occur in order for Syria to say, we have got a 
deal with Israel?
    Dr. Jouejati.  To withdraw totally to the June 4th lines of 
1967 from the Golan Heights and to see on the Palestinian-
Israeli track at least some positive developments that might 
lead in the end to the establishment of a Palestinian state 
very much in conformity with the vision of President Bush.
    This is a longstanding Syrian demand, and where I do 
disagree with Dr. Clawson when he says about the old guard and 
the new guard, here on this very issue I believe the old guard 
and the new guard are very, very much united. President Asad, 
the late President Asad, had he been able to obtain from the 
Israelis that commitment to withdraw to the June 4th lines, I 
think there would have been peace between Syria and Israel. I 
do not think Bashar Asad can accept any less, though.
    Senator Biden.  Excuse me. What you just said contradicts 
that. You just said that it would have to be the total 
withdrawal and there would have to be progress, whatever, not 
defined, progress with regard to the rest of the issue with the 
Palestinians.
    Dr. Jouejati.  Right. In other words, Syria--Syria by 
virtue of its past, by virtue of its national role conception 
as the champion of Arab rights, cannot be seen, I believe, 
because this would hurt the legitimacy of the regime, cannot be 
seen as operating in isolation, as having a separate peace 
treaty with Israel.
    Senator Biden.  So this notion of two tracks is one that 
goes to a dead end from your standpoint? There is no 
possibility of a two-track solution, unless the second track 
simultaneously ends where the first track ends and consistent 
with what the Syrians think is the appropriate settlement, 
correct?
    Dr. Jouejati.  Well, let me try to be more clear than I 
have been. I think--and I may be wrong--that President Asad 
when he went to Geneva to meet with President Clinton to talk 
about all this, I think at the end of the day he would not have 
signed a peace treaty. He would have waited for further 
development on the Palestinian track. But his--from his angle, 
from his Syrian angle, he would have been satisfied that Israel 
had delivered to Syria what Syria demands.
    And I think the same applies to this President.
    Senator Biden.  But what would the former Asad and the 
present one do if that were delivered? I mean, you know, 
delivery is a two-way street. What delivery would come? Would 
they cease and desist supporting Hizballah? Would they call 
effectively a time out while the negotiation went on? Would 
they, as for example the practical--I am not trying to be 
argumentative. I am trying to understand. Practically speaking, 
you could have a circumstance where you had a--Hizballah and 
Syria have two different agendas. Hizballah's clear agenda is 
no Israel, period.
    Now, that I assume is not Syria's agenda. Syria's agenda is 
a settlement between, that is fair, and establishment of a 
Palestinian state that is free and fairly arrived at, and total 
withdrawal to the pre-June borders, the June 4 borders before 
the war, on the Golan.
    But my dilemma here is when folks like you talk to me about 
this, I mean from both perspectives, is that you never connect 
all the dots. There is a third dot and the third dot that 
matters most to Israel, assuming Israel were acting from your 
perspective much more rationally, is that terrorists cease and 
desist and support for terrorists cease and desists.
    But it is clear that the Jihad and Hizballah has made it 
very clear it will not cease and desist, period, until there is 
no Israel. They are not signed onto a two-state solution. They 
have not signed onto the notion that there would be any 
compromise on Jerusalem, compromise on anything.
    So it seems to me your prescription for how to proceed with 
Syria is fundamentally flawed. Explain to me why I am wrong 
about that?
    Dr. Jouejati.  Senator, what Syria will give in return--you 
ask what will Syria deliver. That is the normalization of 
relations with Israel, and normalization here--and it has been 
talked about between Syrians and the Israelis on the official 
level--would be the establishment of diplomatic relations--
    Senator Biden.  Got that.
    Dr. Jouejati.  With an Israeli embassy in Damascus, with an 
Israeli flag waving over it.
    Senator Biden.  That would be a wonderful thing as long, 
that flag waving over it, if they were not still funding and 
supporting Hizballah. Let us get to Hizballah.
    Dr. Jouejati.  Moreover, Syria will have a mutual security 
arrangement with Israel on the Golan Heights. There would be a 
joint water-sharing mechanism on Lake Tiberias.
    Senator Biden.  Got that.
    Dr. Jouejati.  And when there is peace, Senator, between 
Syria and Israel, there is no need for PIJ to have an office in 
Damascus, there is no need for Hamas to--
    Senator Biden.  Why is there no need? Because remember, the 
second part of your equation here is that the Palestinian track 
has to be one, since they view themselves, the Syrians, as the 
leader of the Arab world and the region, is that the 
Palestinians have to be satisfied. And yet you have the very 
people they are funding now saying there is no satisfaction 
available short of elimination of the state of Israel. So that 
is what confuses me.
    Dr. Jouejati.  No, I do not think there is any room for 
confusion. Israel--Syria, rather, Syria has accepted de facto 
Israel within its '67 boundaries and so have all the Arab 
states.
    Senator Biden.  Well, I know, I know--
    Dr. Jouejati.  There are marginal groups, Senator, like 
Hamas and PIJ and so on--
    Senator Biden.  Yes, the ones that they are supporting. So 
what I want to know is what gets them to stop supporting those 
groups?
    Dr. Jouejati.  What stops them to--what gets them to stop 
supporting these groups is peace with Israel, and that assumes 
Israel's withdrawal from occupied territories.
    Senator Biden.  Notwithstanding the fact that it is not 
sufficient for the very groups they are supporting?
    Dr. Jouejati.  These groups as far as Syria is concerned 
and I think as far as all Arab states are concerned would then 
occupy a very, very marginal position. Inside Syria it would 
then be illegal for any group that wants to wage war against 
Israel to exist on Syrian soil.
    Senator Biden.  Well, that is kind of encouraging, because 
the truth of the matter is, you know, Israel does not have much 
to worry about from Syria except their support for terrorist 
groups. I mean, what the hell difference does it make to Israel 
whether it has peace with Syria but for that issue? I mean, 
what flows from there other than that? So that seems to me to 
be the ultimate.
    We talk about carrots and sticks. We talk about who needs 
what. Syria very much wants to regain its self-respect, wants 
to regain the Golan, wants Israel off, quote, ``its'' 
territory. I understand that part of the equation. But I do not 
know what, absent an up-front acknowledgment, if that occurs, 
there will be a ceasing and desisting.
    In my conversations in Syria, the kind of thing that I 
heard--we all hear all kinds of conversations, Mr. Ambassador; 
we all get told different things; it is not a monolithic voice 
that comes out of Damascus or any country--is that the fact of 
the matter is that we cannot be seen as letting down the 
Palestinians, and the voice of Mr. Arafat now and the voice of 
Hizballah and the voice of the Fatah and the voice is simply 
one that suggests right now that there is no--there is no 
outline for peace that falls within the framework of all those 
groups.
    There is an outline for peace that falls within the 
framework of the negotiations of the vast majority of the 
Palestinians and everybody knows what they are. I mean, like 
you said, Mr. Leverett, everybody knows what is needed in these 
various deals. Everybody knows there has got to be compromise 
on Jerusalem, not absolute. Everybody knows that there has got 
to be elimination of the vast majority of the settlements, but 
compromise on the remaining some of the settlements. Everybody 
knows there--everybody knows the pieces. Everybody knows there 
cannot be an absolute right of return.
    Yet those basic points are fundamentally rejected by, they 
are nonstarters for, the very groups that are blowing up people 
right now. So I do not--I find it--I have lost, quite frankly, 
faith in the credibility of Mr. Arafat and-or Mr. Asad and 
others without their up-front acknowledgment that they are the 
elements they are willing to negotiate, which is a de facto, a 
de facto disagreement with the very people that are blowing 
folks up.
    Anyway, I am taking too much time, but I find it--and I 
also have--I mean, carrots and sticks. It is self-evident that 
if they stop supporting these groups, Mr. Leverett, they will 
be taken off the terrorist list. They know that. How is that a 
carrot? How is that a carrot? I do not get that. I do not see 
any carrots here you are offering, and the sticks you are 
offering are ones that I think you have all figured out. Asad 
knows the stick is not going to be--this President has no 
capacity as a political matter to invade Syria now.
    Dr. Clawson.  Senator, do not underestimate how much Mr. 
Asad cares about the kind of rhetorical stance that we take, 
and how the kind of coverage that has been given to the 
deliberations in Congress over the Syria Accountability Act 
indicates that Damascus is hypersensitive to the kinds of 
things we have to say. I think that Damascus, for instance--
    Senator Biden.  Give me any evidence of that based on their 
conduct?
    Dr. Clawson.  What we heard from the first panel was that 
in the last few weeks there has been greater cooperation around 
the question of the $3 billion in funds and about border 
control. I think that that is distinctly related to the 
progress that the Syria Accountability Act--
    Senator Biden.  I see zero evidence of that. The evidence 
of that relates to the progress being taken on the ground in 
the regions that we are occupying in the areas that they have 
been cooperating. I think you guys are smoking something. I 
mean, I do not see this at all. I mean, I think this is like an 
academic exercise at a great university about how we write the 
term paper.
    I mean, I really think there is very little connection to 
reality here, because the converse is true. If in fact they 
were worried about our actions and Congress's actions and the 
President's threats, there would have been a continuum of the 
cooperation that began immediately after, immediately after, we 
invaded Iraq, which then there was some accountability, because 
they really were worried that the voices of the Richard Perles 
and the Wolfowitzes and the neocons may in fact be not an echo, 
but be the voice of America, and there are 120,000 troops 
sitting on their northern border and they were worried they 
would pivot and move south.
    Once they figured out that there was no possibility of them 
pivoting anywhere, all of a sudden things began to change. At 
least I think that. It is presumptuous of me to say. I do not 
know that any more than you know that there has been any 
movement based upon the Syria Accountability Act.
    Anyway, I am frustrated, as you can see. But I am sure you 
all are from a lifetime of dealing with it.
    The Chairman. Let me start my questioning just by 
responding, or rather allowing each of you to speak. Dr. 
Jouejati.
    Dr. Jouejati.  May I, Senator? On the question of Iraq, I 
think Syrian cooperation has been increasing in the past and 
what the Syrians are comforted by is that they have--they are 
seeing now the beginnings of a timetable. This is especially 
true--
    The Chairman. Let us get it straight. There is no straight 
line cooperation. There is no straight line cooperation. Let us 
get it straight now. There is some cooperation in some areas 
and less cooperation in other areas. There is no straight line 
here factually. There is none.
    Dr. Jouejati.  Factually, Senator, first of all, the assets 
that the Iraqis have are reported to be far less than $3 
billion. This is number one.
    Two, according to my understanding and to the information I 
have, yesterday a senior official of the Department of Defense 
invited the Syrian charge d'affairs in Washington to thank him 
for Syria's cooperation on that score, on the unfreezing of the 
assets.
    Senator Biden.  Well, they froze the assets, then they drew 
down the assets to pay off what was owed to them by the Iraqis, 
and now they are ready to talk about the rest of the assets. 
That seems to me to be logical, but it does not demonstrate a 
new-found cooperation.
    Dr. Jouejati.  The new-found cooperation is of course in 
the presence of those Treasury Department folks who are in 
Damascus and who have talked with the Central Bank of Syria 
folks, and as a result we have now, at least in the Department 
of Defense, some happy people according to them and the Syrian 
charge d'affairs. This is on one level.
    On the other level, again I can only speak to what General 
Petraeus is saying--my information is not from the Syrian 
government--and also to Sir Jeremy Greenstock, and they seem to 
be very happy with Syrian cooperation first on the score of 
trying to stop the jihadists from going to Iraq. And the 
Syrians do not succeed all the time because it is a long and 
porous border and because they do not have the necessary 
resources.
    Two, again, Syria--and this is, it is making money out of 
it, of course, but it is providing the area of Mosul with 
electricity and that has a stabilizing effect. So again, Syrian 
cooperation, Syria's increased cooperation if I want to be more 
accurate, on the score of Iraq, as a result that now there is a 
comfort that the United States has a timetable for a 
constitution and for this and that, and this was not the case 
earlier.
    Senator Biden.  I hope you are right. There is decreased 
cooperation in al-Qaeda. There is decreased cooperation in 
other areas, but it is kind of interesting. But go ahead.
    The Chairman. Ambassador Murphy, will you have any comment?
    Ambassador Murphy. Just a brief comment, Mr. Chairman. I 
hear Senator Biden virtually saying that he cannot foresee any 
way that Hamas and Jihad can ever change. Well, I do.
    Senator Biden.  Oh, yes, I am saying that.
    Ambassador Murphy. Well, you have asked if we are smoking 
something. No, it is Federal premises; we are not smoking; we 
are trying to clear that air. The fact is, I look at Avigdor 
Liberman sitting on the opposition bench in the Knesset; now 
actually in the cabinet, who has had a lifelong commitment to 
the expulsion of every last Palestinian from Israel. I foresee 
a day when there is a peace agreement with the Palestinians.
    Senator Biden.  Are you comparing him to Hamas and Jihad?
    Ambassador Murphy I am comparing his absolute view that 
that is the only solution for Israel with the Hamas view that 
Israel should not exist.
    Senator Biden.  I see.
    Ambassador Murphy. One day there will be a Palestinian 
parliament, Hamas and Islamic Jihad will be in opposition, but 
there will be peace. And I agree there will only be peace if 
the Palestinian leadership and countries like Syria exert the 
control to keep them from doing more than making speeches on 
the opposition bench.
    Senator Biden.  Well, I agree with that. That does not 
constitute a change in their attitude.
    Ambassador Murphy. Today there is--look closely also at the 
Hizballah situation. Where does the operetta continue? On that 
tiny section of the Lebanese-Israeli border of the Shabah 
Farms. It is not raging up and down the Lebanese-Israeli 
frontier.
    Senator Biden.  Why?
    Ambassador Murphy. Is it self-control of--
    Senator Biden.  Why?
    Ambassador Murphy. I do not know.
    Senator Biden.  I think I do and I think you do.
    Ambassador Murphy. I think it is a combination of Syrian 
pressure--
    Senator Biden.  Bingo.
    Ambassador Murphy I think it is also perhaps Hizballah's 
own interests within the Lebanese political world.
    Senator Biden.  Bingo.
    Ambassador Murphy. Iran, I do not know. Do you have a view 
on Iran's role?
    Senator Biden.  No, I think those are fully sufficient. 
Some might argue that was the case because Israel may decide to 
go beyond what they did, speaking of sticks.
    The Chairman. Dr. Clawson.
    Dr. Clawson.  At an Arab summit 2 years ago, Bashar Asad is 
reported to have told the other Arab leaders that they can 
ignore the words coming out of Washington because Washington's 
words do not mean very much and the United States does not do 
very much to back up either its threats or its promises. I 
think that is very much an attitude that he has displayed over 
the last 2 years.
    It is very hard for us to get his attention and to take 
very seriously what we say either way, about sticks or carrots. 
So it is important that we measure our words and that we find a 
way to demonstrate our credibility to this fellow, who 
unfortunately does not take us very seriously. To the extent 
that he does take us seriously, then I think that we can get 
some degree of cooperation out of him through a combination of 
sticks and carrots.
    But at the moment we have quite low credibility with him 
because he does not think that we carry through very much on 
what we say. The episode with the oil pipeline from Iraq has 
hurt us very, very badly in that regard, because he was making 
an awful lot of money off that pipeline and he directly 
promised the Secretary of State that that pipeline would not be 
opened until the money was put under the UN, and he knew the 
Secretary of State had the President woken up to be told this 
wonderful news. Yet, when Bashar paid no attention to that 
there was no consequence from the United States.
    It would not have been hard for us to bomb the pumping 
stations inside Iraq and to shut that pipeline down. We did not 
do it, and as a result we have very little credibility with 
this guy and it is going to take a long time to reestablish 
that credibility.
    But I would hope that we can do that by offering measured 
and small, small, sticks, which is all we are doing with the 
Syria Accountability Act, and I would offer some small carrots 
and I suggested some, like computer education and any 
potentially discussing debt relief, meanwhile coordinating with 
the Europeans, who have got this great big carrot that they are 
dangling in front of the Syrians at the moment, this Trade 
Association Agreement that they have been negotiating for 
decades.
    For gosh sakes, let us persuade the Europeans that before 
they sign that, get something from the guy. Based on what the 
Europeans have done with the Iranians, which is said no 
progress on economics until there is progress on human rights 
and on weapons of mass destruction, on the peace process, on 
terrorism, let us ask the Europeans: Okay, what can we do to 
work with you to see that you take that same approach regarding 
Syria.
    The Chairman. Let me intrude at this point, because we 
would enjoy continuing the dialogue for a long time, but a roll 
call vote is under way. There are 7 minutes left to go and 
Senator Biden and I will need to do our duty in another forum.
    But we thank you very much for coming to this hearing.
    Senator Biden.  We thank you all very, very much.
    The Chairman. It has been very, very helpful for our 
understanding, we hope for those who have joined us in the 
hearing room and for the American people who watch this on C-
SPAN. Thank you very much.
    [Whereupon, at 12:58 p.m., the committee was adjourned.]


</pre></body></html>
